       Office of Inspector General
       U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2003 - March 31, 2004
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES


The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and
discussed in this semiannual report.


CHALLENGES                 BRIEF DESCRIPTION OF CHALLENGE                                PAGE

PROCUREMENT                Simplified processes have reduced order and delivery          2 -- 5,
ACTIVITIES                 time, yet competitive principles are not always followed      23 -- 28
                           and opportunities may be missed for less costly services
                           and products.

CONTRACT                   GSA’s multibillion dollar acquisition programs have           6 -- 11
MANAGEMENT                 expanded rapidly in terms of sales, variety, and complexity
                           of the procurements performed. A growing list of warning
                           signs throughout the acquisition process suggests that
                           the technical and management skills needed by the
                           procurement workforce to operate in this more
                           sophisticated arena are not keeping pace with these
                           new demands.

INFORMATION                Technology applications have increased exponentially          11 --14
TECHNOLOGY                 as “E-Gov” is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

MANAGEMENT                 Management controls have been streamlined, resulting          14 -- 17
CONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed.

PROTECTION OF              GSA is responsible for protecting the life and safety         17 -- 18
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

AGING FEDERAL              GSA is being challenged to provide quality space to           19 -- 22
BUILDINGS                  Federal agencies using an aging, deteriorating inventory
                           of buildings and facing critical budgetary limitations in
                           its modernization program.

HUMAN CAPITAL              GSA’s corporate knowledge is eroding and efforts to           No
                           obtain requisite skills for the future are impeded. Better    Reports
                           recruitment and training programs are needed to               This
                           develop the 21st century workforce.                           Period
           Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the six-month reporting period that ended March 31, 2004.

During the past six months, we continued to work with GSA to identify
business management and operational improvements in the Agency’s
programs and operations. We issued reports focusing on the major
challenges facing the Agency, particularly in the areas of procurement,
contract management, information technology (IT), management controls, the
protection of Federal facilities and personnel, and aging Federal buildings.
We devoted considerable resources to our review of contracting practices at
the Federal Technology Service’s (FTS) Client Support Centers (CSCs). This
period we completed reviews in three regions and found improper contracting
practices similar to those previously reported. Subsequently, the
Administrator and the FTS Commissioner requested that we initiate audits of
CSC activities in the remaining regions throughout the nation; these reviews
are currently underway.

In FY 2003, a reorganization of the Office of Audits created four specialized
audit units to lead audit work within GSA’s major functional areas —
Acquisition Programs, Real Property, IT, and Finance. The most newly
established group, the Real Property Audit Office, issued its first two reports
this period, each discussing substantive issues affecting Public Buildings
Service (PBS) operations. We found continued problems relating to PBS’
management and administration of leases in three regions. We also found
that PBS was slow to implement key processes and activities emphasized
under its laudable Construction Excellence Program.

We identified over $327 million in financial recommendations on how funds
could be put to better use. We achieved over $57 million in management
decisions agreeing with audit recommendations, civil settlements, and direct
recoveries. We made 347 referrals for criminal prosecution, civil litigation,
and administrative action. Criminal cases originating from OIG referrals
resulted in 77 successful prosecutions.

I want to express my appreciation to Congress, as well as to the senior
management of the Agency, for their support over this past year to the
mission of this Office. I also want to express my appreciation for the
accomplishments of all OIG employees and commend them for their
continued professionalism, dedication, and willingness to accept new
challenges.




Daniel R. Levinson
Inspector General
April 30, 2004
     Table of Contents



                                                                                          Page


Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xvi

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11


  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . .17

  Aging Federal Buildings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . .23

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . .33

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . .38

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . .40

Appendices 


Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .47

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . .49

Appendix III – Audit Reports over 12 Months Old with Final

 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . .71

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .73

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .74

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral



                                                                   Office of Inspector General iii
                      Summary of OIG Performance





OIG Accomplishments      October 1, 2003 – March 31, 2004

                         Total financial recommendations                              $328,162,191

                         These include:

                         • Recommendations that funds be put to better use            $327,549,488

                         • Questioned costs                                             $612,703

                         Audit reports issued                                               91

                         Referrals for criminal prosecution, civil
                         litigation, and administrative action                             347

Results Attained         Management decisions agreeing with audit
                         recommendations; civil settlements; and
                         court-ordered and investigative recoveries                   $57,913,504

                         Indictments and informations on criminal referrals                 99

                         Cases accepted for criminal prosecution                            31

                         Cases accepted for civil action                                     8

                         Successful criminal prosecutions                                   77

                         Civil settlements                                                   4

                         Contractors/individuals debarred                                   21

                         Contractors/individuals suspended                                  57

                         Employee actions taken on administrative referrals
                         involving GSA employees                                            29




                                                                         Office of Inspector General v
                              Executive Summary





                            During this period, the OIG continued to direct its audit, investigative, and
                            evaluative resources to address what we believe to be the major
                            management challenges facing the Agency. We provided a variety of
                            traditional services, including program evaluations; contract and financial
                            auditing; management control reviews; and investigative coverage and
                            litigation support in contract claims, civil fraud and enforcement actions,
                            and criminal prosecutions. We also continued to provide professional
                            assistance services and reviews of proposed legislation and regulations.

                            Management Challenges
                            We have highlighted a number of reviews that address major
                            management issues facing GSA. We continued our work in addressing
                            these challenges, making recommendations, and working with
                            management to improve Agency operations. During this period, our
                            efforts included work focusing on procurement activities, contract
                            management, information technology (IT), management controls, the
                            protection of Federal facilities and personnel, and aging Federal
                            buildings.

                            Procurement Activities
                            In our previous semiannual report, we highlighted an ongoing audit of
                            inappropriate contracting practices at the Federal Technology Service’s
                            (FTS) Client Support Centers (CSCs) in three GSA regions. Our audit
                            identified numerous improper task order and contract awards. In making
                            these awards, CSC officials breached government procurement laws and
                            regulations and, on a number of occasions, processed procurement
   Improper contracting
                            transactions for goods and services through the IT Fund that were well
        practices           outside the fund’s legislatively authorized purposes. We identified a
                            variety of improper contracting practices including: improper sole source
                            awards, misuse of small business contracts, ordering work outside the
                            contract scope, improper order modifications, frequent inappropriate use
                            of time and materials task orders, and not enforcing contract provisions.
                            Subsequent to this audit, GSA’s Administrator and the FTS Commissioner
                            requested that we initiate audits of CSC activities in the remaining regions
                            throughout the nation. These reviews are currently underway and are
                            planned for completion near the end of the fiscal year (page 2).

                            The GSA Acquisition Manual requires that the Federal Supply Service’s
                            (FSS) Multiple Award Schedule (MAS) contracts include an Economic
                            Price Adjustment (EPA) clause. This clause precludes contractors from
Economic Price Adjustment   changing contract prices without contracting officer approval. In
         clause             conducting a number of interim audits of Hardware SuperStore contracts,
                            we determined that FSS had excluded the EPA clause from the catalog
                            service section of the contracts. Through these contracts, customer
                            agencies can order items such as hardware, tools, appliances, and



                                                                             Office of Inspector General vii
                                           Executive Summary





                                         paints. We advised management that by excluding the EPA clause from
                                         the contracts, FSS compromised its control over price changes and
                                         became vulnerable to higher prices dictated by the contractors. In
                                         response, FSS developed a revised EPA clause and submitted it to
                                         appropriate officials for inclusion in the next refresh of the Hardware
                                         SuperStore solicitation (page 4).

                                         FSS’ Office of Global Supply operates the Special Order Program to
                                         acquire supply items for customer agencies that are not stocked at either
                                         the Warehouse Distribution Centers or the GSA Supply Stores. Because
                                         the Special Order Program operates under industrial funding, FSS must
                                         mark up its acquisition prices to recover its operating costs. FSS
FSS’ Office of Global Supply             currently uses 28 different markup rates to recover Special Order
                                         Program operating costs. We reported that a single rate or a simplified
                                         markup schedule would be more effective. We also recommended that
                                         Global Supply ensure completion and formal issuance of its national
                                         policies and procedures to ensure effective controls over the Program
                                         which generated sales of about $270 million in FY 2003 (page 5).

                                         Contract Management
                                         The Public Buildings Service (PBS) houses over 50 percent of its tenants
                                         in leased space. The annual cost of these 6,600 leases is approximately
                                         $3.6 billion, the largest single item in PBS’ budget. Previous audits by
                                         our office have raised concerns regarding the controls over lease files
                                         and the accuracy of leasing data. Our review of PBS’ management and
   PBS leasing concerns                  administration of leases in several regions found problems with ensuring
                                         tenants receive those services provided under their lease (i.e. cleaning
                                         and maintenance), with mitigating fire and life safety issues, and with
                                         ensuring sufficient control over file documentation and billing accuracy.
                                         With regard to lease files, we found that PBS has improved controls over
                                         lease file documentation and data accuracy, but there were problems with
                                         extensive missing files, missing lease documents, and $3 million of billing
                                         errors in the lease files sampled (page 6).

                                         The Office of Global Supply manages a logistics program through which it
                                         receives, stores, and distributes items to Federal customers. It currently
                                         operates two distribution centers — the Eastern Distribution Center (EDC)
                                         and the Western Distribution Center (WDC). Before relocating the WDC
      Supply depot                       to a newer facility made available by the Defense Logistics Agency (DLA),
    modernization study                  FSS commissioned a study to explore alternative methods to modernize
                                         the facility. As a result of the study, FSS selected a modernization
                                         alternative costing $21 million with projected annual savings of
                                         $9.7 million. Since FSS was also considering a similar study regarding
                                         modernizing its facilities at the EDC, we evaluated the validity of the
                                         study’s projected savings. We were able to substantiate potential savings




viii Semiannual Report to the Congress
                               Executive Summary





                             of only $3.8 million attributable to modernization. Additionally, we
                             reviewed the Interservice Support Agreement between FSS and DLA and
                             noted that FSS had no contingency plan to address possible disruption to
                             WDC operations if DLA should terminate its agreement (page 7).

                             We reviewed FTS’ wireless telephone service program as a follow-up to
                             an FY 2000 audit. The prior audit reported that FTS’ Federal Wireless
                             Telecommunications Services (FWTS) contract created sole-source
                             marketing opportunities for its two major subcontractors and that there
                             was a potential overlap between FSS and FTS contracts for wireless
Wireless telephone service   services. The follow-up review determined that FTS took several steps to
                             expand competition such as establishing an on-line wireless products
                             store and authorizing two regional contracts, although these were not
                             successful. In response to our current concerns regarding sole source
                             issues, FTS advised that it will extend the FWTS contract until it awards
                             the replacement contract for FTS2001, and that the replacement contract
                             will include a full array of multi-vendor wireless products and services
                             (page 8).

                             The Clinger-Cohen Act of 1996 (the Act) requires the establishment of
                             policies and procedures for the management of the Federal acquisition
                             workforce to ensure personnel are qualified to perform critical acquisition
                             duties and tasks. In accordance with the Act, the Office of Federal
FSS acquisition workforce
                             Procurement Policy (OFPP) developed governmentwide qualification
     qualifications          standards for the 1102 Contracting Series. Our review addressed
                             whether FSS was ensuring its acquisition personnel complied with the
                             qualification standards established by OFPP. We made
                             recommendations to ensure that 1102 employees who are promoted
                             based on the issuance of temporary waivers complete the waiver
                             requirements within the specified timeframes (page 9).

                             Information Technology
                             The Clinger-Cohen Act also makes the development and implementation
                             of an agency-wide enterprise architecture a key part of the Information
                             Technology (IT) Capital Planning and Investment Control process. An
                             enterprise architecture is a blueprint for systematically and completely
                             defining an organization’s current and targeted IT environment, along with
                             a plan on how to transition to the target environment. Our most recent
  Enterprise architecture    assessment has found that while GSA has begun laying the groundwork,
                             a fully functional enterprise architecture will not likely be completed for
                             several years, and there is little evidence that current system
                             development efforts will be consistent with long range IT goals. GSA has
                             made minimal investments in developing and implementing an enterprise
                             architecture, and thus, an overall weakness in GSA’s IT Capital Planning
                             and Investment Control process exists since it is not yet guided by an
                             agency-wide enterprise architecture to ensure compatible systems and
                             reduce duplication (page 11).

                                                                              Office of Inspector General ix
                                        Executive Summary





                                      As part of its effort to modernize its aging legacy system environment,
                                      FTS awarded a contract in August 2002, for a commercial vendor to build
                                      and operate FTS’ new Third Generation System (3GS) based on a
                                      commercial-off-the-shelf product. The new system is intended to provide
                                      FTS employees and Federal clients with real-time access to acquisition,
                                      financial, project, program, and contracting information. Current cost
FTS’ Third Generation System          estimates for a nine-year system lifecycle have risen to $143.9 million,
                                      well above the $37.5 million used to determine return on investment and
                                      to justify development of the system. Our review of the 3GS
                                      development found that while FTS has made progress in configuring the
                                      new system for its needs, there are significant technical and project risks
                                      hindering a successful system implementation. Due to the unexpected
                                      complexity of implementing the system, FTS has delayed the
                                      implementation date by several months (page 12).

                                      GSA has recently completed a redesign of the GSA.gov Web portal
                                      aimed at more effectively marketing GSA’s products and services to
                                      Federal departments and agencies. The redesigned GSA.gov Web portal
           GSA.gov                    launched in October 2003 addresses previously identified problems with
                                      site navigation and inconsistent appearance. While the redesign initiative
                                      has improved the GSA.gov Web portal, the Agency has not yet
                                      implemented similar best practices on other Service and Staff Office Web
                                      pages managed outside the portal, or ensured that the portal’s search
                                      capabilities provide users the most up-to-date search results (page 13).

                                      Management Controls
                                      Many Federal agencies obtain their travel services through a task order
                                      issued against GSA’s Master Contract for Travel Management Center
                                      (TMC) Services. In FY 2003, the sales reported under these task orders
                                      exceeded $720 million. The costs to operate the TMC program are
                                      recouped from the agencies as part of an Industrial Funding Fee (IFF)
                                      that is included in each TMC transaction. We performed a review of data
    Travel Management
                                      submitted by the TMC contractors and found discrepancies between the
          Centers                     IFF reported amounts and the actual payments received from the TMCs,
                                      and problems with the data sources that FSS relies upon to review the
                                      accuracy of the IFF payments. Because TMCs fail to consistently provide
                                      all of the required information with remittances and FSS has not enforced
                                      the contract to obtain the information, the reconciliation process is
                                      difficult. Although the TMC Master Contract grants GSA access to directly
                                      pertinent records involving transactions related to the contract, it does not
                                      allow access to other sales records, i.e., commercial and personal travel
                                      accounts. Without complete access to this data, we could not provide
                                      assurance that the IFF reported to GSA was correct (page 14).

                                      GSA Fleet provides about 6,500 non-combat vehicles to U.S. military
      Fleet’s European                operations located in Europe. Our audit focused on the procurement and
         operations                   payment procedures of Fleet’s European operations. We found that

x Semiannual Report to the Congress
                            Executive Summary





                          some of the methods Fleet had established to make vendor payments
                          posed control risks. Some procurements for purchases in excess of
                          $2,500 were made without adequate competition or documentation of the
                          basis of sole-source procurements. The primary automotive fuel supplier
                          was providing bills in a format that impaired Fleet’s automated review of
                          the bills for accuracy. Employees’ access to the financial system was not
                          adequately monitored and controlled. We also identified erroneous
                          payments because of a system breakdown (page 15).

                          GSA’s Office of Governmentwide Policy (OGP) is responsible for
                          establishing lodging per diem rates for Federal employees. As part of our
                          review of this process, we served as non-voting advisors to the
                          Governmentwide Per Diem Advisory Board (Board). The Board
                          developed 33 recommendations related to lodging per diems. OGP has
Lodging per diem rates	   implemented seven of the Board’s recommendations and has taken steps
                          to evaluate several additional recommendations. We identified two areas
                          of concern regarding the Board’s recommendations. We found that OGP
                          is using the premier lodging program in the rate-setting process. OGP
                          has contracted with hotels in the top 87 travel destinations and based the
                          per diem rate on the highest contract rate for each city. The average
                          lodging cost for an area should be the basis for setting per diem rather
                          than rates based on property specific variables. Also, we are concerned
                          over the absence of clear performance measures to ensure travelers’ and
                          taxpayers’ interests are considered, and to assess the impact of changes
                          (page 16).

                          Protection of Federal Facilities and Personnel
                          In recent semiannual reports, we have highlighted our concerns that
                          significant numbers of GSA contractor employees did not have proper
                          security clearances. GSA’s policy requires that all contractor employees
 Improper contractor	     pass a background suitability check in order to work in GSA-controlled
 security clearances	     buildings. This period, we completed a review covering 1,551 Public
                          Buildings Service (PBS) contract employees in one region. We identified
                          290 instances where these employees were working at GSA-controlled
                          facilities without the required suitability check. In addition, 163 contract
                          employees were overdue for the recertification required after five years.
                          We observed that property managers did not have current rosters of
                          contractor employees and often did not have adequate records of the
                          clearance status of each employee. Also, service contracts awarded by
                          the region did not include a clause requiring background suitability
                          checks. The failure to ensure that contract employees have proper
                          security clearances places employees, visitors, and the physical assets at
                          risk (page 18).

                          Aging Federal Buildings
                          The PBS Portfolio Restructuring Initiative represents the Agency’s plan to
                          eliminate underperforming assets and arrive at a smaller self-sustaining

                                                                           Office of Inspector General xi
                                          Executive Summary





                                        portfolio of strong income-producing owned properties complemented by
                                        a larger leased inventory. Based on audit tests, we concluded that the
                                        present strategy is unlikely to achieve its ultimate goal of a self-sustaining
                                        inventory of Federally-owned properties. Fund performance will itself
                                        benefit from the disciplined, analytical management that this initiative
                                        introduces, but the goal of self-sufficiency may not be attainable. We
                                        identified significant problems in the data underlying key inputs, such as
                                        reimbursable expenses not credited back to specific buildings and items
   Portfolio Restructuring              expensed rather than being capitalized, both of which impact current
           Initiative                   building net income; and estimates of fair market value based upon
                                        assumptions rather than on actual appraisal-based data, all of which
                                        impair the validity of the tiering process and carry a potential to distort
                                        capital allocation decisions. We also found that the restructuring strategy
                                        of disposing of underperforming, owned assets and subsequent
                                        replacement with leased space may not succeed in shoring up the
                                        Federal Buildings Fund (FBF). Finally, we compared rent estimates
                                        contained in the tiering model with market data in a sample of appraisals
                                        and found that in most cases, market data revenue was lower than the
                                        model’s revenue by as much as 41 percent. This foreshadows a potential
                                        decline in overall FBF revenue, as new rates are negotiated to replace
                                        expiring occupancy agreements (page 19).

                                        In 1999, PBS established the Construction Excellence Program to
                                        promote project management methods and techniques that, when
                                        implemented effectively, should help keep projects on time, on budget, at
                                        their original scope and as a result, minimize cost escalations and claims.
                                        In our audit of seven construction projects in various stages of
                                        completion, we found that all but one required additional funds or scope
                                        reductions to the initial design, and that three of the ongoing projects are
  Construction Excellence               behind their original schedules. We also found that PBS was slow to
         Program                        implement key processes and activities, including those emphasized
                                        under the Construction Excellence Program. The Construction
                                        Excellence Program also advocates using the Source Selection
                                        procurement method as an opportunity for PBS to carefully review
                                        prospective contractors through the evaluation of predetermined technical
                                        factors as well as bid price. However, we found that most of the projects
                                        did not utilize techniques specifically designed to address the technical
                                        issues in individual projects. We also found that PBS was underutilizing
                                        Project Management Plans, a key planning tool of the Construction
                                        Excellence Program that outlines the project scope, milestone schedule,
                                        budget, team organization, strategy to be used in contracting and
                                        procurement, and basic systems to be utilized. While four of the seven
                                        projects we reviewed did have plans documented, they were not followed,
                                        kept up-to-date, or communicated to appropriate parties (page 20).




xii Semiannual Report to the Congress
  Executive Summary





Promoting and Protecting Integrity
In our ongoing efforts to promote and protect the integrity of GSA’s
programs and operations, we aggressively conduct investigations and
pursue the prosecution of individuals and companies committing criminal
and civil fraud and other offenses that impact GSA programs. A number
of these investigations have led to enforcement actions during this
semiannual period, including:

•	 Tiger Natural Gas settled a civil fraud case with the government for
   $11.5 million for misappropriating natural gas it supplied to Federal
   facilities under GSA’s National Gas Acquisition Program (page 23).

•	 The government settled a civil fraud case with Polaroid Corporation for
   providing false pricing information and for failing to report discounts. In
   its bankruptcy proceedings, Polaroid agreed to a $3.2 million debt to
   resolve the government’s defective pricing allegations (page 23).

•	 As a member of a task force to investigate telecommunications fraud,
   the OIG’s Office of Investigations participated in two joint
   investigations. One investigation involved illegally accessing long
   distance telephone lines by intrusion into Private Branch Exchange
   (PBX) switches and resulted in an individual being sentenced to
   46 months incarceration, 36 months supervised release, and being
   ordered to pay $798,758 in restitution. In the other case, an individual
   was sentenced to 12 months incarceration, three years supervised
   release, and ordered to pay restitution in the amount of $73,394 for
   engaging in calling card fraud by “shoulder surfing” (page 24).

•	 As part of an ongoing probe into corruption involving the GSA Public
   Buildings Service, a former GSA building manager pled guilty to bribery
   in connection with the awarding of GSA contracts involving a Federal
   Courthouse in Chicago, Illinois. She pled guilty to bribery after the
   investigation disclosed she had received over $18,000 in new windows
   and siding for her residence and awarding over $80,000 in bogus
   contracts to the firm. Another GSA employee, pled guilty to receiving
   more that $10,000 in cash from various GSA contractors in exchange
   for awarding several limited value contracts. This GSA OIG corruption
   case resulted from a five-year investigation in which 16 defendants
   have been charged to date (page 24).

•	 Ace Moving and Storage agreed to pay $54,000 to the government to
   settle a civil fraud claim for overbilling the government on various
   moves conducted under its contract (page 25).

•	 An ongoing proactive investigation of the misuse of GSA-issued fleet
   charge cards resulted in the sentencing of a former Amtrak and a
   Veteran’s Administration employee for theft charges and charge card
   abuse with restitution totaling over $22,000 (page 25).
                                                 Office of Inspector General xiii
                                          Executive Summary





                                        •	 The president of Techneon International, a tool company, was
                                           sentenced to 25 months in prison, three years supervised release, and
                                           was ordered to pay restitution in the amount of $90,741 for theft of
                                           government funds and making false statements (page 26).

                                        •	 Two individuals pled guilty to stealing Federal surplus property for their
                                           own use. One was sentenced to home detention, probation, and
                                           community service; and both were ordered to pay restitution totaling
                                           over $18,000 (page 26).

                                        •	 Two GSA contractors were sentenced for bribing a GSA official in
                                           connection with GSA renovation and construction contracts. One
                                           contractor was sentenced to two years probation and ordered to pay a
                                           $10,000 fine, and the other contractor was sentenced to one year
                                           probation, fined, and ordered to pay $2,000 in restitution (page 26).

                                        •	 Sixty-one illegal aliens were arrested at a GSA construction site and
                                           turned over to the U.S. Department of Homeland Security, Immigration
                                           and Customs Enforcement after allegations arose that a subcontractor
                                           working on a GSA construction project had instructed its employees,
                                           who were not legally authorized to work in the United States, to use
                                           false social security numbers and identities to qualify for employment
                                           (page 27).

                                        •	 An individual was sentenced to 27 months incarceration, eight years
                                           supervised probation, and ordered to pay restitution of $2,000 after
                                           pleading guilty to fraud in connection with identification documents and
                                           information (page 27).

                                        •	 A former GSA realty specialist pled guilty to conflict of interest charges
                                           after she went to work for a company with whom she had negotiated
                                           leases on behalf of the government (page 27).

                                        Summary of Results
                                        The OIG made over $327 million in financial recommendations to better
                                        use government funds; made 347 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 147 legislative and
                                        regulatory actions; and received 882 Hotline contacts. This period, we
                                        achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $57 million. (See page v for a summary of this period’s
                                        performance.)




xiv Semiannual Report to the Congress
                                        OIG Organization Chart




                                            Inspector General
                                            Daniel R. Levinson      Office of Internal Evaluation
     Office of Counsel to the IG
          Kathleen S. Tighe                                              James A. Amoroso
          Counsel to the IG              Deputy Inspector General              Director
                                              Joel S. Gallay


 Office of Administration                      Office of Audits            Office of Investigations
     John C. Lebo, Jr.                        Eugene L. Waszily             James E. Henderson
  AIG for Administration                       AIG for Auditing             AIG for Investigations

        Human                                     Audit                           Field Support
       Resources                               Operations &
        Division                               Administration
                                                                                  Zone Offices
                                                                                Washington, D.C.
       Information                               Information                       New York
       Technology                                Technology                        Chicago
         Division                                Audit Office                     Fort Worth
                                                                                 San Francisco

     Administrative                                 Real
      & Financial                                 Property                             Sub-Offices
     Management                                  Audit Office                          Philadelphia
       Division                                                                          Boston
                                               Finance & Staff                         Kansas City
                                                                                         Atlanta
                                                   Offices
                                                                                       Auburn (WA)
                                                 Audit Office

                                                 Acquisition
                                                 Audit Office

                                                 Field Audit
                                                   Offices
                                               Washington, D.C.
                                                   Boston
                                                  New York
                                                 Philadelphia
                                                   Atlanta
                                                   Chicago
                                                 Kansas City
                                                  Fort Worth
                                                San Francisco

                                                       Sub-Office
                                                      Auburn (WA)




xvi Semiannual Report to the Congress
                                OIG Profile





                       The GSA OIG was established on October 1, 1978 as one of the original
                       12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                       components work together to perform the missions mandated by
                       Congress.

Organization	          The OIG provides nationwide coverage of GSA programs and activities.
                       Our components include:

                       •	 The Office of Audits, an evaluative unit staffed with auditors and
                          analysts who provide comprehensive coverage of GSA operations
                          through program performance reviews, assessment of management
                          controls, and financial and compliance audits. The office also conducts
                          external reviews in support of GSA contracting officials to ensure fair
                          contract prices and adherence to contract terms and conditions. The
                          office additionally provides research, benchmarking, and other services
                          to assist Agency managers in evaluating and improving their programs.

                       •	 The Office of Investigations, an investigative unit that manages a
                          nationwide program to prevent and detect illegal and/or improper
                          activities involving GSA programs, operations, and personnel.

                       •	 The Office of Counsel, an in-house legal staff that provides legal
                          advice and assistance to all OIG components, represents the OIG in
                          litigation arising out of or affecting OIG operations, and manages the
                          OIG legislative/regulatory review and Congressional liaison functions.

                       •	 The Office of Internal Evaluation, an analytical staff that provides
                          coverage of OIG operations primarily through management
                          assessments, and conducts internal investigations and reviews at the
                          direction of the Inspector General.

                       •	 The Office of Administration, which provides information technology
                          systems, budgetary, administrative, personnel, and communications
                          services.

Office Locations	      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                       Building. Field audit and investigation offices are maintained in Boston,
                       New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                       Francisco, Auburn, and Washington, D.C. (A contact list of OIG offices
                       and key officials is provided in Appendix VI.)

Staffing and Budget	   As of March 31, 2004, our on-board strength was 265 employees. The
                       OIG’s Fiscal Year (FY) 2004 budget is $38.9 million.




                                                                        Office of Inspector General 1
                                      Management Challenges





                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges
                                      facing the Agency. (The current list is summarized on the front inside
                                      cover.) This period we continued our work in addressing these
                                      challenges, making recommendations, and working with management to
                                      improve Agency operations. The following sections highlight our activities
                                      in these areas.

                                      Procurement Activities
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews
                                      of these activities to ensure that the taxpayers’ interests are protected.

                                      Improper Contracting Practices
                                      In our previous semiannual report, we highlighted an ongoing audit of
                                      improper contracting practices at the Federal Technology Service’s (FTS)
 FTS’ Client Support                  Client Support Centers (CSCs) in three GSA regions. CSCs help
                                      customer agencies define their information technology (IT) requirements,
  Centers awarded                     identify sources of products or services, prepare contract task orders, and
  millions of dollars                 assist in managing projects, depending upon the level of support needed
  in improper task                    by the customer. CSC procurement revenues grew from $3.8 billion in
                                      FY 2001 to $5.8 billion in FY 2003. This period, we completed our audit
      orders and                      work in those three regions. Our audit identified numerous improper task
 contracts, including                 order and contract awards. In making these awards, CSC officials
 over $100 million in                 breached government procurement laws and regulations and, on a
                                      number of occasions, processed procurement transactions for goods and
    non-IT related                    services through the IT Fund that were well outside the fund’s legislatively
    transactions.                     authorized purposes, including $36 million for construction of classrooms
                                      and office buildings; $38 million for floating marine barriers; and
                                      $36 million for pathogen detection devices and services. Inappropriate
                                      contracting practices included: improper sole source awards, misuse of
                                      small business contracts, ordering work outside the contract scope,
                                      improper order modifications, frequent inappropriate use of time and
                                      materials task orders, and not enforcing contract provisions.

                                      Of 92 FSS Schedule orders for services in our review sample, the CSCs
                                      awarded 50 without the benefit of competition. A substantial number of
   Over half of the                   these sole source awards were not proper. Recent legislation and FSS
 Schedule orders for                  ordering procedures specify the need to obtain a minimum of three offers
    services were                     for most orders to ensure fair and reasonable prices. We concluded that,
                                      particularly in the case of professional services, the client generally had a
  awarded without                     vendor in mind before coming to GSA, and the CSCs were not effective
     competition.                     in expanding the competitive environment in order to obtain potentially
                                      lower prices.




2 Semiannual Report to the Congress
                      Management Challenges





                      Procurement Activities (continued)

                      The Federal Acquisition Regulation (FAR) allows for sole source
                      procurements to eligible small business 8(a) firms if the anticipated total
                      value of the non-manufacturing contract is under $3 million. But within
                      our sample of 86 small business 8(a) task orders and contracts, we found
                      that FTS directed improper procurements for millions of dollars in 70 of
Eighty-one percent    these cases to obtain the services of companies its customers wanted.
of small business     We noted instances where FTS used these contracts in breach of
                      regulations to improperly perform work not within the scope of the
 8(a) task orders
                      contract, and where the vast majority of work was subcontracted by the
  were improper.      8(a) vendor to another company. In making several of these awards,
                      significant funds were wasted by compensating the contractors for doing
                      little more than placing orders with other favored contractors to do the
                      actual work. Many of these task orders represented split procurements in
                      order to avoid exceeding the competitive threshold established for
                      8(a) firms by the FAR. We also identified inappropriate contract scopes
                      of work for other than small business firms. These actions likely resulted
                      in increased costs for goods and services and other liabilities for the
                      government.

                      The CSCs perpetuated non-competitive situations by processing multiple
                      modifications to task orders, adding work, and extending the time the
                      contractor had to complete the task. In many cases, the modifications
                      were improper because they: (1) added work and option periods that
                      were not consistent with the original statement of work, (2) exercised task
                      option years without performing the requisite analyses, or (3) extended
                      the period of performance of the task without appropriate justification.

                      As a result of these improper contracting practices, the procurements did
      A culture       not provide reasonable assurance that the government received supplies
                      and services at fair and reasonable prices, and the fundamental
     emphasizing      objectives underlying the Federal procurement process were not
revenue growth and    achieved.
  accommodating
                      We identified several factors that contributed to these problems — an
      customer        ineffective system of internal management controls, CSC personnel
     preferences      sacrificing adherence to proper procurement procedures in order to
    increased the     accommodate customer preferences, and a culture that emphasized
                      revenue growth. These factors created an environment that fostered
      program’s       client-driven decisions and inattention to laws and regulations, increasing
   vulnerability to   the program’s vulnerability to fraud, waste, and abuse. We also
 fraud, waste, and    determined that FTS’ performance measures do not adequately promote
                      competition. Therefore, we concluded that the internal controls that were
        abuse.        established were not always effective and did not provide assurance that
                      government funds were reasonably protected.



                                                                       Office of Inspector General 3
                                       Management Challenges





                                       Procurement Activities (continued)

                                       In our January 8, 2004 report, we recommended that FTS:

                                       •	 Perform a detailed analysis of the factors contributing to the problems
                                          identified, including an ineffective system of internal management
                                          controls, CSC personnel’s lack of adherence to proper procurement
                                          procedures, and an overemphasis on revenue growth and client-driven
                                          decisions.

                                       •	 Based on this analysis, determine what changes are needed in the
                                          structure, operations and mission of the CSCs, mix of resources, and
                                          management control processes to align policies and procedures with
                                          laws and regulations and GSA’s own core values in ensuring the
                                          government obtains best value, and develop a time-phased action plan
                                          to implement these changes.

                                       •	 Develop additional performance measures for the CSCs that promote
                                          competition and other sound procurement practices.

                                       The FTS Commissioner concurred with our recommendations and stated
                                       that FTS has begun to implement a series of actions and initiatives to
        GSA’s                          improve acquisition quality and integrity across the organization. She
  Administrator and                    also stated that GSA and FTS management are working together to
  FTS Commissioner                     review the CSC operations, adjust goals, and take strong actions to
                                       remedy problems.
      request an
   expanded review.                    Subsequent to this audit, GSA’s Administrator and the FTS Commissioner
                                       requested that we initiate audits of CSC activities in the remaining regions
                                       throughout the nation. These reviews are currently underway and are
                                       planned for completion before the end of the fiscal year.

                                       Exclusion of the Economic Price Adjustment Clause in FSS MAS
                                       Contracts
                                       The GSA Acquisition Manual requires that FSS Multiple Award Schedule
                                       (MAS) contracts include an Economic Price Adjustment (EPA) clause.
   FSS’ exclusion of                   The clause requires contractors to submit proposed price increases to
     the Economic                      contracting officers for evaluation prior to implementation and precludes
                                       contractors from unilaterally changing contract prices. In conducting a
   Price Adjustment                    number of interim audits of Hardware SuperStore contracts, we
   clause made FSS                     determined that FSS had excluded the EPA clause from the catalog
      vulnerable to                    service section of the contracts. Through these contracts, customer
                                       agencies can order items such as hardware, tools, appliances, and
    unilateral price                   paints. Contracting officials said they had excluded the clause to more
       increases.                      adequately mirror commercial practice and to reduce required contract
                                       maintenance.



4	 Semiannual Report to the Congress
                      Management Challenges





                      Procurement Activities (continued)

                      In our February 2, 2004 report, we advised management that by
                      excluding the EPA clause from the contracts, FSS compromised its
                      control over price changes and became vulnerable to higher prices
                      dictated by the contractors.

                      In response to our review, FSS developed a revised EPA clause that
                      addresses our concerns. Once approved by appropriate officials, the
                      revised EPA clause will be included in the next refresh of the Hardware
                      SuperStore MAS contract solicitation. Accordingly, the audit report did not
                      contain any formal audit recommendations.

                      Audit of FSS Global Supply’s Special Order Program
                      The Federal Supply Service’s (FSS) Office of Global Supply (Global
                      Supply) operates the Special Order Program to acquire supply items for
                      customer agencies that are not stocked at either the Warehouse
                      Distribution Centers or the GSA Supply Stores. In FY 2003 the Program
                      generated sales of about $270 million. Program orders are processed
                      out of three commodity centers, located in Texas, New York, and
                      Missouri. Because the Special Order Program operates under industrial
                      funding, FSS must mark up its acquisition prices to recover its operating
                      costs. Markups are developed based on factors such as staff hours used
                      to support procurements, dollar acquisition thresholds, and source(s) of
 Multiple markup      supply.

  rates in FSS’       FSS uses 28 different markup rates based on costs for individual
  Special Order       acquisition centers. However, since FSS now focuses on the Special
 Program can be       Order Program as a whole, we believe that a single rate or a simplified
                      markup schedule would be more effective.
   simplified to
improve efficiency.   We noted that Global Supply recently began to write consolidated and
                      consistent national policies and procedures for the Special Order Program
                      to measure and improve the efficiency in the delivery of goods and
                      services. We believe formal issuance of national policies and procedures
                      are of utmost importance to ensure effective controls for Global Supply.

                      In our March 31, 2004 report, we recommended that Global Supply
                      ensure the updated policies and procedures are formally issued, and that
                      it considers simplifying the markup schedule to fulfill its industrial funding
                      needs. The FSS Commissioner generally concurred with our
                      recommendations.




                                                                         Office of Inspector General 5
                                      Management Challenges





                                      Contract Management
                                      GSA increasingly accomplishes its mission by using contractors to
                                      provide client services and products. Its multibillion dollar acquisition
                                      programs have expanded rapidly in terms of size, variety, and complexity
                                      of the procurements performed. While many GSA contracts are well
                                      crafted and properly administered, we are finding an increasing number of
                                      weaknesses. Our recent audit work reveals a growing list of warning
                                      signs throughout the acquisition process that suggests the technical and
                                      management skills needed by the procurement workforce to operate in
                                      this more sophisticated arena are not keeping pace with these new
                                      demands.

                                      Oversight of Leases
                                      The Public Buildings Service (PBS) houses over 50 percent of its tenants
                                      in leased space. The annual cost of these 6,600 leases is approximately
                                      $3.6 billion, the largest single item in PBS’ budget. Realty specialists and
                                      property managers are responsible for the lease administration and day-
                                      to-day lease management, respectively. Inspecting and evaluating the
                                      leased property and maintaining liaison with both the lessor and the
                                      tenant are key responsibilities of these officials. Ensuring customer
                                      satisfaction and accuracy of data in the leasing information system are
                                      major performance measures.

                                      Previous audits by our office have raised concerns regarding the controls
                                      over lease files and the accuracy of leasing data. Our review of PBS’
    Lease oversight                   management and administration of leases in three regions identified
      needs to be                     problems with failing to ensure that tenants receive those services
 improved to ensure                   provided under the lease, with mitigating fire and life safety issues, and
                                      with ensuring sufficient control over file documentation and billing
  tenants receive all                 accuracy. While PBS has improved controls over lease file
  lease services and                  documentation and data accuracy, one region had extensive missing files,
   that critical safety               all three regions had missing lease documents, and, in a sample of
                                      29 lease files, there were billing errors with an approximate absolute
     conditions are                   value of $3 million.
  promptly resolved.
                                      Our review also determined that PBS was not monitoring receipt of
                                      periodic cleaning and maintenance services required by the lease, and
                                      was inconsistent in its oversight of leased properties. We also found that
                                      PBS had adopted a passive approach to resolving issues of poor quality
                                      or lack of service, relying on the tenant to complain rather than ensuring
                                      required services are provided.

                                      We also found numerous unresolved safety conditions in leased
                                      buildings, including longstanding problems (going back to the early
                                      1980s). Some unresolved conditions were the types that could cause risk
                                      of severe injury or occupational illness, indicating a breakdown in the
                                      process to mitigate fire and life safety issues. Only one of the three

6 Semiannual Report to the Congress
Management Challenges





Contract Management (continued)

regions we reviewed required performance evaluations for safety issues.
However, during our review, PBS issued guidance that updated fire
protection, life safety, and environmental procedures for lease
acquisitions.

In our February 10, 2004 report, we recommended that PBS:

•	 Proactively manage leases by obtaining from the lessors detailed
   schedules on periodic services to be performed, provide this
   information to property managers, and document inspections to make
   certain deficiencies are corrected.

•	 Fully implement the PBS fire safety procedures and processes
   established to reduce the risk of injury in PBS leased space.

•	 Strengthen the accuracy and sufficiency of file documentation and
   pursue correction of billing errors.

The Commissioner agreed with the report recommendations.

Modernizing the Supply Depot
The Office of Global Supply manages a logistics program through which it
receives, stores, and distributes items to Federal customers. It currently
operates two distribution centers — the Eastern Distribution Center (EDC)
in New Jersey and the Western Distribution Center (WDC) in California.

Before relocating the WDC to a newer facility made available by the
Defense Logistics Agency (DLA), FSS commissioned a study to explore
alternative methods to modernize the facility. As a result of the study,
FSS selected a modernization alternative costing $21 million with
projected savings of $9.7 million annually. Since FSS was also
considering a similar study regarding modernizing its facilities at the EDC,
we evaluated the validity of the study’s projected savings. We also
reviewed the Interservice Support Agreement between FSS and DLA.

FSS projected saving $3.2 million in rent, $1.6 million in transportation,
$4.8 million in labor, and $0.1 million in FedEx expenses. We were able
to substantiate potential savings of only $3.8 million attributable to
modernization.

We determined that the projected rent savings was a reasonable estimate
that might be realized by relocating the WDC. However, the savings can
be realized by moving and do not pertain to modernization. We were
unable to substantiate the projected transportation cost savings due to



                                                 Office of Inspector General 7
                                       Management Challenges





                                       Contract Management (continued)

                                       the study’s insufficient analysis and use of unreliable data, and we found
                                       that the FedEx savings were based on an assumed discount that will not
                                       be realized. We did find that the modernization could result in labor
                                       savings, but less than that projected by the study. We recomputed the
                                       labor savings to reflect the actual size of the workforce, which resulted in
                                       an annual projected savings of approximately $3.8 million. Because of
                                       the weaknesses noted, FSS needs to more closely scrutinize projected
                                       cost savings in future studies before proceeding with modernization at the
                                       EDC.
    Supply depot
  modernization cost                   Additionally, we reviewed the Interservice Support Agreement between
                                       FSS and DLA and noted that either party can terminate the agreement
     savings are                       with a 180-day notification. FSS had no contingency plan to address
     overstated.                       possible disruption to WDC operations should DLA cancel the agreement.

                                       Our November 19, 2003 report recommended that FSS:

                                       •	 Analyze and validate the contractor’s proposed savings before
                                          implementing modernization at the EDC.

                                       •	 Develop a contingency plan to minimize the impact on operations
                                          should a further relocation be needed.

                                       The Commissioner generally concurred with our recommendations, but
                                       did not agree with our conclusion that relocation and modernization
                                       should have been assessed as independent events and that
                                       transportation savings were unsubstantiated. The report is still in the
                                       resolution process.

                                       Wireless Telephone Service
                                       We conducted a follow-up review of a July 2000 audit of FTS’ wireless
                                       telephone service program. In the prior audit, we reported that FTS’
                                       Federal Wireless Telecommunications Services (FWTS) contract created
                                       sole-source marketing opportunities for its two major subcontractors and
                                       that there was a potential overlap between FSS and FTS contracts for
                                       wireless services. We recommended that FTS not exercise future options
                                       to extend the FWTS contract and work with FSS to conduct market
                                       research and develop a cohesive acquisition plan for wireless services.

                                       We found that, contrary to our previous recommendations, FTS has
                                       continued to exercise the annual FWTS contract options. FTS advised
                                       that, although several companies expressed interest in signing on to the
                                       FWTS contract, the companies ultimately chose not to participate. FTS
                                       also took several steps to expand competition such as establishing an



8	 Semiannual Report to the Congress
                       Management Challenges





                       Contract Management (continued)

                       on-line wireless products store and authorizing two regional contracts,
                       although these were not successful. The FWTS contract has generated a
                       substantial revenue stream for FTS as it has grown from approximately
                       $881,000 in FY 1997 to more than $64 million for FY 2003, however it still
Wireless telephone     includes a sole source opportunity for the two major subcontractors.
 service contracts
 can be enhanced       We also observed that FTS does not have comprehensive knowledge of
                       the customer base, a process for gauging customer satisfaction, or a
through increased      process for evaluating the accuracy of contract information reported by
 competition and       the service providers. By addressing these areas, FTS may be able to
    evaluating         add value to its customers, ensuring they obtain optimal prices, plans,
                       and services.
 customer agency
    usage and          In response to the OIG’s continuing concerns with the FWTS contract and
   satisfaction.       sole source issues, FTS advised that it will extend the FWTS contract
                       until FTS awards the replacement contract for FTS2001, and that the
                       replacement contract will include a full array of multi-vendor wireless
                       products and services. The FWTS program manager advised us that she
                       would adopt our suggestions on providing added value by obtaining more
                       information on customer agencies’ accounts and use, measuring
                       customer satisfaction, and ensuring the accuracy of contract information.
                       Due to FTS’ ongoing actions in this area, we did not include formal
                       recommendations.

                       FSS Acquisition Workforce Qualifications
                       The Clinger-Cohen Act of 1996 (the Act) requires the establishment of
                       policies and procedures for the management of the Federal acquisition
                       workforce to ensure personnel are qualified to perform critical acquisition
                       duties and tasks. In accordance with the Act, the Office of Federal
                       Procurement Policy (OFPP) developed governmentwide qualification
                       standards for the 1102 Contracting Series. The standards prescribe
                       education and training requirements to be achieved by 1102s at each
                       General Schedule (GS) grade. In addition to the standards prescribed by
     Many FSS          OFPP, Federal agencies may require agency-specific training for
                       personnel in selected positions. Our review addressed whether FSS was
acquisition staff do   ensuring its acquisition personnel complied with the qualification
not meet education     standards established by OFPP.
    and training
                       While FSS is striving to increase the percentage of its Clinger-Cohen
     standards.        compliant 1102 workforce, we believe more can be done. We reviewed a
                       sample of 60 percent of the 558 1102s on staff as of March 31, 2003. We
                       found that 66 percent of those sampled met FSS’ “at-grade” qualification
                       standards. However, to become fully Clinger-Cohen compliant,
                       employees must have a four-year degree, 24 hours of business credits,
                       and complete GSA-specific mandatory training classes.

                                                                        Office of Inspector General 9
                                       Management Challenges





                                       Contract Management (continued)

                                       FSS can promote non-compliant 1102s to the GS-13 level if a temporary
                                       waiver is issued. Although these waivers have explicit timeframes for
                                       employees to complete the missing qualifications, there appears to be no
                                       consequence if the requirements are not met within the timeframe. We
                                       reported on some compliance problems, including failure to complete
                                       classes within the required timeframe and promoting to GS-13 or higher
                                       without the issuance of a waiver.

                                       There are a number of mechanisms in place within GSA to assist the
                                       Agency in complying with and tracking the acquisition workforce
                                       qualifications. These include training and education through partnership
                                       programs with higher education institutions and educational vendors, and
                                       the pilot of the GSA-sponsored Applied Learning Center (ALC) available
                                       to GSA’s 1102 series employees; issuance of temporary waivers; and
                                       implementation of a new tracking system.

                                       The Senior Procurement Executive has piloted and proposed the full
                                       development of the ALC as a means of increasing compliance by
                                       awarding training and education credits and justifying the issuance of
                                       temporary waivers. However, we found that FSS and others have voiced
                                       concerns about the ALC, and at the time of our review, no decision had
                                       been made regarding its full development. Also, until recently, there was
                                       no centralized system to track FSS’ 1102 acquisition workforce data. We
                                       found that although the system is now in place, the data is not yet
                                       complete, and there is no verification system in place to ensure the
                                       accuracy or reliability of the data. We also found that FSS and the Senior
                                       Procurement Executive are issuing conflicting guidance on the
                                       interpretation and definition of Clinger-Cohen qualification standards for
                                       acquisition staff.

                                       In our March 25, 2004 report, we recommended that the FSS
                                       Commissioner continue an on-going dialogue with the Senior
                                       Procurement Executive addressing concerns regarding the
                                       implementation of the Applied Learning Center; ensure that 1102
                                       employees who are promoted based on the issuance of temporary
                                       waivers complete the temporary waiver requirements within the specified
                                       timeframes; and work with the appropriate entities to promote and hire
                                       acquisition staff in compliance with the provisions of the acquisition
                                       workforce qualifications.

                                       We also recommended that the Senior Procurement Executive create and
                                       implement quality control procedures for inputting and maintaining high-
                                       quality data within the tracking system, and establish a standardized
                                       definition of Clinger-Cohen compliance to be formally communicated to
                                       the Services, Staff Offices, and Regions.


10 Semiannual Report to the Congress
                    Management Challenges





                    Contract Management (continued)

                    The FSS Commissioner and the Senior Procurement Executive both
                    agreed with our recommendations. The report is still in the resolution
                    process.

                    Information Technology
                    GSA is in the process of replacing a number of its old information
                    systems to improve performance and take advantage of technological
                    advances. Since GSA has had difficulty sharing usable data between
                    systems, many of the new information technology (IT) projects are
                    intended to go beyond automating current business functions and create
                    real change in the way that GSA does business. However, development
                    of new GSA systems has typically experienced schedule delays and cost
                    overruns, the need for frequent redesign, and a prolonged period of time
                    in development.

                    Clinger-Cohen Act Implementation
                    The Clinger-Cohen Act of 1996 makes the development and
                    implementation of an agency-wide enterprise architecture a key part of
                    the IT Capital Planning and Investment Control process. An enterprise
                    architecture establishes the agency-wide roadmap to achieve the mission
                    of an agency through optimal performance of its core business processes
                    within an efficient information technology environment. Simply stated, an
                    enterprise architecture is a blueprint for systematically and completely
                    defining an organization’s current and targeted information technology
                    environment, along with a plan on how to transition to the target
                    environment. GSA’s IT Capital Planning and Investment Control process
                    should incorporate Clinger-Cohen goals by including cost effective IT
                    investments that fit into the target enterprise architecture.

                    While GSA has begun laying the groundwork, a fully functional enterprise
                    architecture will likely not be completed for several years, and there is
  There is little   little evidence that current system development efforts will be consistent
  evidence that     with long range IT goals. GSA has made minimal investments in
  GSA’s current     developing and implementing an enterprise architecture compared to
                    other Federal agencies, and thus an overall weakness exists in GSA’s IT
      system        Capital Planning and Investment Control process since it is not yet guided
  development       by an agency-wide enterprise architecture to ensure compatible systems
  efforts will be   and reduce duplication. To implement an enterprise architecture, GSA
                    needs a development plan and implementation schedule that identifies
 consistent with    agency-wide roles, responsibilities, milestones, and deliverables tied to
long range goals.   the Agency’s governance structure, along with the policy and processes
                    in place for IT capital investments. Success of the development plan and
                    implementation schedule depends on GSA top management’s support for


                                                                   Office of Inspector General 11
                                       Management Challenges





                                       Information Technology (continued)

                                       effective policy coupled with strategic goals and performance measures
                                       for enterprise architecture in GSA’s Service and Staff Offices.
    GSA has made                       In our March 10, 2004 report, we recommended that the Chief
       minimal                         Information Officer (CIO) establish an enterprise architecture
   investment in an                    development plan and implementation schedule that includes Service and
                                       Staff Office roles and responsibilities, and engage the GSA
      enterprise                       Administrator’s support to ensure the development and implementation of
     architecture.                     Service and Staff Offices’ strategic goals and performance measures for
                                       an enterprise architecture, to be used as a basis for GSA’s IT Capital
                                       Planning and Investment Control process.

                                       The Chief Information Officer generally concurred with the audit findings
                                       and recommendations. We made appropriate adjustments to the final
                                       report to reflect several concerns raised by the CIO in response to the
                                       draft of the report. The audit is still in the resolution process.

                                       System Review of the FTS’ Third Generation System (3GS)
                                       As part of its effort to modernize its aging legacy system environment,
                                       FTS awarded a contract in August 2002 for a commercial vendor to build
                                       and operate FTS’ new Third Generation System (3GS) based on a
                                       commercial-off-the-shelf product. The new system is intended to provide
                                       FTS employees and Federal clients with real-time access to acquisition,
                                       financial, project, program, and contracting information. It will replace
                                       four legacy stovepipe applications that have evolved with minimal
                                       coordination during development, resulting in significant redundancy and
                                       fragmentation across these systems. Our review of the 3GS
 FTS’ development                      development found that while FTS has made progress in configuring the
 of the 3GS System                     new system for its needs, there are significant technical and project risks
  has encountered                      hindering a successful system implementation. Due to the unexpected
                                       complexity of implementing the system, FTS has delayed the
   several project                     implementation date by several months.
    and technical
   risks, schedule                     FTS’ aggressive developmental schedule has not provided adequate
                                       flexibility to adjust to unexpected delays. Further, the schedule has not
     delays, and                       allowed key security components, including finalizing user roles and
  increased costs.                     security documentation for the system, to be completed. As FTS
                                       completes the configuration of 3GS, other significant obstacles remain
                                       that could hinder a successful implementation. An interface with GSA’s
                                       financial system of record, completion of comprehensive system testing,
                                       and formulation of an effective end-user training program are all critical to
                                       success and are still lacking. Performance goals for 3GS that are
                                       measurable and system-specific are also needed. In addition, current
                                       cost estimates for a nine-year system lifecycle have risen to


12 Semiannual Report to the Congress
                  Management Challenges





                  Information Technology (continued)

                  $143.9 million, well above the $37.5 million used to determine return on
                  investment and to justify development of the system. Consequently, FTS
                  needs to update its benefits-cost analysis and return on investment for
                  3GS based on the new estimated lifecycle costs for the system.
                  Immediate attention to each of these risk areas is necessary to better
                  ensure a successful system deployment and realization of expected
                  benefits and cost savings for 3GS.

                  As noted above, FTS has not completed the 3GS interface with GSA’s
                  financial system of record. As discussed in our Federal Managers’
                  Financial Integrity Act review (page 29), the Chief Financial Officer has
                  raised concerns related to the user controls associated with the
                  implementation of Pegasys as GSA’s financial system of record. The
                  CFO noted that problems were identified in processing payments, which
                  required manual payments outside of the system. Additionally, the CFO
                  reported that the validation and reconciliation of some accounts were not
                  completed as timely as necessary and that financial reports are now less
                  precise than in prior years. This issue was also identified as a material
                  weakness in the Financial Statement audit (page 30).

                  In our February 11, 2004 report, we recommended that FTS

                  •	 Update the benefits-cost analysis conducted for 3GS to verify the
                     return on investment based on new estimated lifecycle costs.

                  •	 Finalize and comprehensively test user and portal roles to validate
                     segregation of duties and implementation of logical security controls
                     prior to implementing the system.

                  •	 Prioritize the completion of key system documentation.

                  •	 Develop measurable performance improvement goals to monitor actual
                     performance compared to expected results for 3GS.

                  Management generally concurred with our findings and recommendations
                  and began taking actions to address the issues raised in our review.

                  GSA.gov
                  GSA has recently completed a redesign of the GSA.gov Web portal to
    Further       make it a marketing tool for GSA’s products and services available to
 improvements     Federal departments and agencies. The redesigned GSA.gov Web portal
needed in GSA’s   launched in October 2003 addresses previously identified problems with
                  site navigation and inconsistent appearance. Through the use of best
redesigned Web    practices, the portal now has a unified navigational system that makes it
    portal.       easier to use. While the redesign initiative has improved the GSA.gov


                                                                  Office of Inspector General 13
                                       Management Challenges





                                       Information Technology (continued)

                                       Web portal, the Agency has not yet implemented similar best practices on
                                       other Service and Staff Office Web pages managed outside the portal, or
                                       ensured that the portal’s search capabilities provide users the most up-to-
                                       date search results.

                                       Our March 30, 2004 report recommended that the Office of Citizen
                                       Services and Communications develop and implement direction and
                                       guidance for all GSA Offices to employ consistent best practices on their
                                       Web pages, and to ensure that comprehensive and current search results
                                       are produced from the GSA.gov Web portal.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have
                                       been replaced, through streamlining efforts, by fewer and broader
                                       controls, making it essential that the remaining control processes be
                                       emphasized and consistently followed. Streamlined processes have
                                       helped GSA achieve its goal of serving customers more quickly and
                                       efficiently; however, the Agency is exposed to the risk of mismanagement
                                       and abuse if program officials do not ensure the faithful application of
                                       existing safeguards.

                                       Travel Management Centers
                                       Many Federal agencies obtain their travel services through a task order
                                       issued against GSA’s Master Contract for Travel Management Center
                                       (TMC) Services. As of 2003, GSA clients had over 1,000 active task
                                       orders with 44 contractors. Air and rail ticket sales under these task
                                       orders exceeded $720 million in 2003. The costs to operate the TMC
      Controls are                     program are recouped from the agencies as part of an Industrial Funding
    lacking in FSS’                    Fee (IFF) that is included in each TMC transaction. The TMCs are
                                       required to report and remit the IFF collected to GSA quarterly. Late
         Travel                        reporting and/or late remittances have been a concern that FSS has been
     Management                        addressing with the TMCs.
  Center Services to
                                       Based on our review of data submitted to GSA by the TMC contractors,
        ensure                         we were unable to confirm that the contractors remitted the IFF in an
   contractors remit                   accurate, complete, and timely manner. We identified discrepancies
                                       between the IFF reported amounts and the actual payments received
     accurate and
                                       from the TMCs, and problems with the data sources that FSS relies upon
       complete                        to review the accuracy of the IFF payments. Because TMCs fail to
  Industrial Funding                   consistently provide all of the required reference information with
                                       remittances and FSS has not enforced the contract to obtain the
    Fee payments.
                                       information, the reconciliation process is difficult. While the TMC Master
                                       Contract grants GSA access to directly pertinent records involving
                                       transactions related to the contract, it does not explicitly allow access to


14 Semiannual Report to the Congress
                       Management Challenges





                       Management Controls (continued)

                       other sales records, i.e., commercial and personal travel accounts.
                       Without complete access to this data, we could not provide assurance
                       that the IFF reported to GSA was correct.

                       FSS has begun the award and implementation phase of the new Travel
                       Services Solutions (TSS) contract, which will eventually replace the
                       existing Master Contract. We believe that with the issuance of the new
                       solicitation, some of the shortcomings with the current contract have been
                       addressed. The new contract will allow FSS to take action, including
                       canceling the contract, if TSS contractors fail to provide accurate sales
                       reports or pay the IFF in a timely manner.

                       In our March 26, 2004 report, we recommended that FSS ensure that:

                       •	 The contractors provide the required detail reference information in a
                          timely manner and that the appropriate GSA offices have the
                          necessary information to promote effective controls over the IFF
                          collection and monitoring process.

                       •	 It identifies and resolves discrepancies between the IFF reported
                          amounts and IFF payments received from the TMCs.

                       •	 The new contract terms and conditions will allow GSA complete,
                          unrestricted access to contractors’ records including government,
                          commercial, and personal travel accounts sales information.

                       The FSS Commissioner concurred with the report recommendations.
                       The report is still in the resolution process.

                       FSS’ European Fleet Operations
                       GSA’s Fleet operations provide about 6,500 non-combat vehicles to U.S.
                       military operations located in Europe. The Fleet began operations in
                       Germany in 1997 and has since expanded its operations to Italy, Belgium,
                       Greece, and Spain. It operates under constraints much different than
                       those in the United States, due to foreign currencies and constantly
 Control risks exist   fluctuating exchange rates.
 in FSS’ European
Fleet operations in    Our audit focused on the procurement and payment procedures of Fleet’s
                       European operations. During our audit we found that some of the
  making foreign       methods Fleet had established to make payments to vendors posed
currency payments.     control risks and employees’ access to the financial system was not
                       adequately monitored and controlled.

                       The primary difficulty posed by euro payments is simultaneously paying
                       the transaction in euros and booking the entry in dollars in Pegasys. The


                                                                       Office of Inspector General 15
                                       Management Challenges





                                       Management Controls (continued)

                                       process Finance has developed with the Department of Treasury
                                       (Treasury) results in Pegasys entries after the payment has been
                                       processed by Treasury and the Federal Reserve Bank, which converts
                                       the euro to dollars and pays the transaction in euros. Because the initial
                                       input controls for some payment methods are outside of Pegasys, a
                                       single user is able to enter and process a transaction without further
                                       approval.

                                       As a result of the lack of controls, a payment in the amount of $27,310
                                       had been made to the wrong vendor and had gone undetected until our
                                       audit. We also identified a file containing 57 transactions totaling about
                                       $13,350 that had been submitted to the finance office twice and paid
                                       twice because of a system breakdown. We found procurements for
                                       purchases in excess of $2,500 made without adequate competition or
                                       documentation of the basis of sole-source procurements. We also found
                                       that the primary automotive fuel supplier was providing bills in a format
                                       that impaired Fleet’s automated review of the bills for accuracy.

                                       In our March 18, 2004 report, we recommended that Fleet management:

                                       •	 Closely monitor and control the vendor direct payment process.

                                       •	 Provide additional training to European employees responsible for
                                          procuring Fleet goods and services on the appropriate procurement
                                          regulations and requirements.

                                       •	 Establish procedures to obtain detailed fuel bills that can be examined
                                          electronically.

                                       •	 Resolve financial system access issues regarding users authorized to
                                          use the direct payment process and those who leave GSA.

                                       The Commissioner agreed with our findings and recommendations.

                                       In a separate report, we discussed with the Chief Financial Officer (CFO)
                                       the details that led to the duplicate payments. As a result of our work, the
                                       CFO’s Office and Fleet began to recover the payments made in error and
                                       to address the control issues that led to the erroneous payments.

                                       The report is still in the resolution process.

                                       Review of GSA’s Process for Establishing Lodging Per Diems
                                       As directed by statute, GSA establishes lodging per diem rates for
                                       Federal employees. GSA’s Office of Governmentwide Policy (OGP)



16 Semiannual Report to the Congress
                     Management Challenges





                     Management Controls (continued)

                     assumed responsibility for the rate setting process from FSS in 1996 and
                     has made various refinements to the process. As part of our review of
                     this process, we served as non-voting ex-officio advisors to the
                     Governmentwide Per Diem Advisory Board (Board), a panel of travel and
                     lodging experts from government and the commercial sector that met
                     from June 2002 through January 2003. The Board developed 33
                     recommendations related to lodging per diems. OGP has implemented
  A time-phased      seven of the Board’s recommendations and has taken steps to evaluate
                     several additional recommendations. However, we believe that OGP
   action plan is
                     needs to establish a time-phased action plan to ensure that all
 needed to ensure    recommendations are evaluated in a timely manner. Although the lodging
implementation of    per diem methodology is in a state of transition, we identified two areas of
                     concern regarding the Board’s recommendations.
  a government
 advisory board’s    First, we identified concerns with OGP using negotiated contract rates
recommendations      from the premier lodging program to set lodging per diem rates. OGP
                     has contracted with hotels in the top 87 travel destinations and based the
on setting lodging   per diem rate on the highest contract rate for each city. The average
  per diem rates.    lodging cost for an area should be the basis for setting per diem rather
                     than rates based on property specific variables, especially since the rates
                     can dramatically impact governmentwide travel costs estimated to be
                     about $10 billion a year. Our second concern is the absence of clear
                     performance measures to ensure travelers’ and taxpayers’ interests are
                     considered, and to assess the impact of changes.

                     We recommended that the Associate Administrator, OGP:

                     •	 Develop a time-phased action plan for evaluating and implementing the
                        Board’s recommendations related to establishing lodging per diem
                        rates.

                     •	 Document the reason for modification or dismissal of any of the
                        Board’s recommendations.

                     The Associate Administrator concurred with the recommendations in our
                     report and advised us that OGP has hired a contractor to help develop
                     formal performance measures.

                     Protection of Federal Facilities and Personnel
                     Providing a safe, healthful, and secure environment for over 1 million
                     workers and the visitors to over 8,300 owned and leased Federal facilities
                     nationwide is a major multifaceted responsibility of GSA. The increased
                     risks from terrorism have greatly expanded the range of vulnerabilities
                     traditionally faced by building operations personnel. In March 2003, the



                                                                     Office of Inspector General 17
                                       Management Challenges





                                       Protection of Federal Facilities and Personnel (continued)

                                       Federal Protective Service (FPS) was transferred from GSA to the
                                       Department of Homeland Security (DHS). While FPS is no longer part of
                                       GSA, the Agency has a continual need to closely interact with security
                                       personnel due to GSA’s mission of housing Federal agencies. GSA and
                                       FPS/DHS operate under a Memorandum of Agreement for obtaining
                                       services such as basic security for buildings, contract guards, law
                                       enforcement, background suitability determinations for contractors
                                       (including child care center personnel), pre-lease security checks,
                                       occupant emergency plan support, and continuity of operations support.
                                       Ensuring that Federal employees have a secure work environment and
                                       that building assets are adequately safeguarded must remain a primary
                                       concern of GSA.

                                       Security Clearance Process for Contractor Personnel
                                       In recent semiannual reports, we have highlighted our concerns that
                                       significant numbers of GSA contractor employees do not have proper
                                       security clearances. GSA’s policy requires that all contractor employees
                                       are required to pass a background suitability check in order to work in
                                       GSA-controlled buildings. We identified this condition during several
    Nearly twenty                      audits throughout the country. This period, we completed a review
                                       covering 1,551 Public Buildings Service (PBS) contract employees in one
   percent of PBS
                                       region.
       contract
  employees in one                     We identified 290 instances where contract employees were working at
                                       GSA-controlled facilities without the required suitability check. In addition,
    region lacked                      163 contract employees were overdue for the recertification required after
      required                         five years. We attributed this largely to the lack of a formalized suitability
     background                        tracking system in the region. We also observed that property managers
                                       did not have current rosters of contractor employees and often did not
       checks.                         have adequate records of the clearance status for each contractor
                                       employee. Furthermore, service contracts awarded by the region did not
                                       include a clause requiring background suitability checks.

                                       The failure to ensure that contract employees have proper security
                                       clearances places employees, visitors, and the physical assets at risk. If
  Regional officials                   PBS is to have assurance that contractor personnel meet security
                                       clearance requirements, property managers and contracting officials have
    take corrective
                                       to play a more active role in monitoring the contractor workforce.
      action and
       develop a                       During the course of our fieldwork, regional officials took responsive
                                       corrective action by developing a Web-based PBS Security Clearance
  clearance tracking                   Tracking System. In our October 20, 2003 report, we recommended that
        system.                        the region continue development of this tracking system and ensure that
                                       all regional service contracts include clauses requiring suitability
                                       determinations and five-year recertifications. Management agreed with
                                       our recommendations. The report is still in the resolution process.
18 Semiannual Report to the Congress
                        Management Challenges





                        Aging Federal Buildings
                        GSA is being challenged to provide quality space to Federal agencies in
                        a competitive environment with an aging, deteriorating inventory of
                        buildings and critical budgetary limitations. It is estimated that it would
                        take over $5 billion to bring the building inventory up to standard. GSA
                        needs to determine which buildings represent the greatest risk from a
                        safety and operational perspective, which buildings will yield the best
                        return on investment, and how to fund the highest priority projects in a
                        timely manner.

                        The Portfolio Restructuring Initiative
                        The majority of PBS’ inventory of owned buildings is over 30 years old,
                        and quality, health, and safety deficiencies present in many are serious
                        and widespread. At the end of FY 2002, PBS estimated that $5.5 billion
                        was needed for outstanding repair and alteration of these assets. The
 Shortcomings in        PBS Portfolio Restructuring Initiative represents the Agency’s plan to
                        eliminate underperforming assets and arrive at a smaller self-sustaining
   PBS’ Portfolio
                        portfolio of strong income-producing owned properties, complemented by
   Restructuring        a larger leased inventory. Based on audit tests of the primary
Initiative impair its   assumptions upon which the initiative is constructed, we concluded that
                        the present strategy is unlikely to achieve its ultimate goal of a self-
   effectiveness.
                        sustaining inventory of Federally-owned properties, i.e., one capable of
                        funding long-term capital requirements solely out of the proceeds of
                        current operations. Fund performance will itself benefit from the more
                        disciplined, analytical management that this initiative introduces, but the
                        goal of self-sufficiency may not be attainable.

                        The “tiering” model adopted by PBS mirrors commercial practice,
                        grouping the buildings into several classes (performing, underperforming,
                        and non-performing), and identifying the potential profitability of each to
                        be used as a guide for both disposal and reinvestment decisions. Key
                        inputs are current building net income, estimates of fair market value,
                        repair needs, and replacement cost. The model itself is logical and
                        generally appropriate although we believe it should be separately applied
                        to both owned buildings and leased inventory to determine whether each
                        asset is maximizing its potential. We did, however, identify significant
                        problems in the data underlying these key inputs that impair the validity of
   Disposal of          the tiering process and carry a potential to distort capital allocation
underperforming         decisions.
 assets may not         We also found that the restructuring strategy of disposing of
  shore up the          underperforming, owned assets and subsequent replacement with leased
Federal Buildings       space may not succeed in shoring up the Federal Buildings Fund (FBF).
                        Asset disposal does not reduce the cost of operating the PBS
      Fund.             organization; it only eliminates the direct cost of operating the building in
                        question. The pool of expenses that represents the cost of operating the


                                                                         Office of Inspector General 19
                                       Management Challenges





                                       Aging Federal Buildings (continued)

                                       PBS organization, referred to as general and administrative costs or G&A,
                                       is essentially fixed — changes to the mix of buildings result only in a
                                       redistribution of the same total cost pool. Further, the current G&A
                                       allocation methodology is too complicated, erratic, and generally deficient
                                       as a basis for investment decisions at the building-specific level. Thus, it
                                       is unclear whether leasing results in full cost recovery for PBS, even in
                                       the aggregate.

                                       Finally, we compared rent estimates contained in the tiering model with
                                       market data in a sample of appraisals and found that in most cases,
                                       market data revenue was lower than the model’s revenue, by as much as
                                       41 percent. This foreshadows a potential decline in overall FBF revenue,
                                       as new rates are negotiated to replace expiring occupancy agreements.
                                       The Public Buildings Act, PBS’ authorizing legislation, requires that GSA
                                       rent “approximate commercial charges for comparable space and
                                       services”. PBS determines this by means of an independent rent
                                       appraisal, which is a professional’s opinion as to what the rent should be
                                       based on comparable commercial activity. Non-comparable space is
                                       priced at a return-on-investment basis.

                                       The appraisers also noted some instances where the Federal tenancy
                                       behaves like its own submarket, paying above comparable “market” rates
                                       with little tendency to seek out non-Federal space alternatives available in
                                       an otherwise soft market. Assuming a conventional economic model,
                                       Federal tenants apparently perceive additional value in such benefits as
                                       120-day termination rights, visible building security, a typically robust and
                                       secure technical infrastructure, and being in a shared Federal community.

                                       In our December 31, 2003 report, we recommended that PBS continue to
                                       explore alternative means of financing needed repair and modernization,
                                       and where possible seek to maximize revenue by pricing that more fully
                                       captures underlying demand. We also advocated a more discrete
                                       accounting, dividing the fund and all of its related expenses into two
                                       portfolios, one comprised of leased properties, the other comprised of
                                       owned properties. The PBS Commissioner noted that although PBS may
                                       not agree with all report specifics, it conceptually agrees with the report
                                       content and concurs with the report recommendations. The report is still
                                       in the resolution process.

                                       Audit of PBS’ New Construction Program
                                       Over the years, cost growth, particularly due to contract change orders
                                       and contractor claims, has been a concern on new GSA construction
                                       projects. For the five-year period 1999–2003, the budget for new




20 Semiannual Report to the Congress
                      Management Challenges





                      Aging Federal Buildings (continued)

                      construction under PBS’ Construction and Acquisition Program totaled
                      $2.1 billion. Over the same time, PBS funded an additional $124 million
                      for project cost escalations and settled $151 million in claims. More than
                      $300 million in claims are currently pending. In 1999, PBS established
PBS’ construction     the Construction Excellence Program to promote project management
  projects have       methods and techniques that, when implemented effectively, should help
                      keep projects on time, on budget, at their original scope, and as a result
   experienced        minimize cost escalations and claims.
   hundreds of
millions of dollars   In an audit of seven construction projects in various stages of completion,
                      we found that all but one required additional funds or scope reductions to
      in cost         the initial design, and that three of the ongoing projects were behind their
 escalations and      original schedules. We also found that PBS was slow to implement key
      claims.         processes and activities, including those emphasized under the
                      Construction Excellence Program. Several of these controls and
                      techniques occur early in the project when decisions on scope, schedule,
                      and budget have a great impact.

                      For example, the Construction Excellence Program advocates using
                      design reviews at 30, 60, and 90 percent of design completion, and
                      alternative construction delivery methods that lead to early reviews of the
                      design drawings, thus identifying problems early on before they become
                      critical. We noted that when the design could not be constructed for the
                      budgeted amount, repercussions were felt throughout the project.
   Contracting        Processes aimed at addressing this problem included design reviews,
officials are slow    early involvement of the construction contractor through different delivery
     to adopt         methods, and mutual agreement with the customer on the budget, scope,
                      and requirements of the project.
  Construction
    Excellence        Construction Excellence also advocates using the Source Selection
                      procurement method as an opportunity for PBS to carefully review
     Program          prospective contractors through the evaluation of predetermined technical
   techniques.        factors as well as bid price. For example, PBS can call upon vendors to
                      provide oral presentations and answer specific questions to provide a
                      better assessment of contractor abilities. However, we found that most of
                      the projects did not utilize oral presentations or questions specifically
                      designed to address the technical issues in individual projects.

                      We also found that PBS was underutilizing Project Management Plans, a
                      key planning tool of the Construction Excellence Program that outlines
                      the project scope, milestone schedule, budget, team organization,
                      strategy to be used in contracting and procurement, and basic systems to
                      be utilized. While four of the seven projects we reviewed did have plans
                      documented, they were not followed, kept up-to-date, or communicated to
                      appropriate parties.


                                                                      Office of Inspector General 21
                                       Management Challenges





                                       Aging Federal Buildings (continued)

                                       We identified that improvements are needed in project administration
                                       activities as well, to ensure the delivery of a successful project. These
                                       include: ensuring change orders are properly executed, supported, and
                                       fully costed; maintaining project schedules; and keeping accurate
                                       accounting records.

                                       In our March 3, 2004 report, we recommended PBS:

                                       •	 Develop and issue a project management handbook for construction.

                                       •	 Give consideration to the adoption of additional best practices, such as
                                          greater oversight of projects and using peer reviews to assess the use
                                          of project management techniques.

                                       •	 Emphasize more diligent project administration.

                                       The PBS Commissioner stated that he is in general agreement with the
                                       findings of the audit, which is still in the resolution process.




22 Semiannual Report to the Congress
                      Promoting and Protecting Integrity





                           GSA is responsible for providing working space for almost one million
                           Federal employees. The Agency also manages the transfer and disposal
                           of excess and surplus real and personal property and operates a
                           governmentwide service and supply system. To meet the needs of
                           customer agencies, GSA contracts for billions of dollars worth of
                           equipment, supplies, materials, and services each year. We conduct
                           reviews and investigations in all these areas to ensure the integrity of the
                           Agency’s financial statements, programs, and operations and that the
                           taxpayer’s interests are protected. In addition to detecting problems in
                           these GSA programs and operations, the OIG is responsible for initiating
                           actions to prevent fraud, waste, and abuse and to promote economy and
                           efficiency. When systemic issues are identified during investigations, they
                           are shared with GSA management for appropriate corrective actions.

                           Significant Criminal and Civil Actions
                           Natural Gas Vendor Pays $11.5 Million to Settle Government Fraud
                           Claims
                           On January 9, 2004, the government negotiated a settlement with Tiger
                           Natural Gas (Tiger), of its civil False Claims Act liability for
                           misappropriating natural gas it obtained under a Department of Interior
                           (DOI) program that provides natural gas from Federal lands. Tiger is a
  Fraud charges            vendor that provides natural gas to GSA’s National Gas Acquisition
  against natural          Program (NGAP). Tiger was to have supplied the gas obtained under the
gas vendor settled         DOI program to Federal facilities under GSA’s NGAP program and
                           contracts. The government’s investigation determined that, in fact, Tiger
 for $11.5 million.        sold the gas on the commercial spot market for profit. In the settlement,
                           Tiger agreed to pay $11.5 million to the government, and agreed to
                           exclude itself from participation in any GSA procurements for a period of
                           five years. It also agreed to remove a principal owner from any GSA-
                           related responsibilities.

                           Polaroid Agrees to $3.2 Million Debt to Resolve Government’s
                           Defective Pricing Allegations
                           On March 16, 2004, the government resolved a qui tam lawsuit brought
                           against Polaroid Corporation for violations of the civil False Claims Act.
                           The settlement resolved allegations that, from 1990 to 1997, Polaroid
                           provided false pricing information during the negotiation and award of two
                           GSA Multiple Award Schedule contracts and that Polaroid failed to report
                           discounts it had given to non-government customers through the course
                           of the two contracts. The government alleged that, as a result of these
                           omissions and misrepresentations, Polaroid knowingly submitted false
                           claims, which resulted in inflated prices that were paid by the
                           government. In the settlement agreement, Polaroid, which in 2001 had
                           filed for Chapter 11 bankruptcy reorganization, agreed that the United




                                                                           Office of Inspector General 23
                              Promoting and Protecting Integrity





                                       States’ Proof of Claim filed in Polaroid’s bankruptcy proceedings would be
                                       allowed for $3.2 million. The amount of funds the United States will
                                       actually recover will be determined by the United States Bankruptcy Court
                                       when it distributes assets to all general unsecured creditors. Under the
                                       qui tam provisions of the False Claims Act, a portion of the settlement will
                                       be paid to the former Polaroid employee who initially filed the
                                       “whistleblower” lawsuit.

                                       Telecommunications Fraud
                                       The OIG continues to be a principal participant in the New York Electronic
                                       Crimes Task Force (NYECTF), which has been investigating
                                       telecommunications fraud primarily involving Federal facilities within the
                                       New York metropolitan area. GSA is the principal provider of
                                       telecommunications services for these facilities. NYECTF members
                                       include the Secret Service, Department of Defense, Department of
                                       Justice, New York City Police, and telecommunications industry
                                       representatives.

                                       One fraud investigation completed during this reporting period involved
                                       the intrusion into Private Branch Exchange (PBX) telephone switches.
                                       PBXs, or telephone switches, are usually breached through their voice
                                       mail systems. The investigation found that an individual used his
                                       telephone lines to illegally access the PBX of companies who utilize AT&T
                                       as their long distance carrier. The individual pled guilty to charge card
                                       fraud and was sentenced to 46 months incarceration, 36 months
                                       supervised release, and ordered to pay restitution of $798,758.

                                       Another completed investigation was initiated when an AT&T Network
                                       Security Specialist disclosed to members of the NYECTF that an
                                       individual was engaged in calling card fraud by “shoulder surfing”. The
                                       investigation found that the individual watched people dial their calling
                                       card numbers, recorded the numbers, and then sold the calling card
                                       numbers to individuals who used them to make unauthorized telephone
                                       calls. The individual pled guilty to charge card fraud and was sentenced
                                       to 12 months incarceration, three years supervised release, and ordered
                                       to pay restitution in the amount of $73,394.

                                       16 Defendants Plead Guilty in Corruption Probe
                                       As a result of an ongoing criminal investigation involving the Public
    Investigation                      Buildings Service (PBS), 16 individuals, including former PBS employees
  uncovers corrupt                     and GSA contractors, pled guilty during this reporting period. This
   contracting at                      investigation, conducted jointly with the Federal Bureau of Investigation,
                                       was initiated based on information that GSA employees were illegally
       Federal                         awarding contracts involving a Federal Courthouse in Chicago, Illinois for
     Courthouse.                       various building services and supplies in exchange for bribes and
                                       kickbacks.


24 Semiannual Report to the Congress
Promoting and Protecting Integrity





     This five-year investigation uncovered a pervasive, corrupt environment
     involving the payment of gifts, money, and illegal drugs in return for the
     award of GSA contracts. In addition, the investigation revealed that some
     GSA employees, working in concert with certain vendors, were receiving
     plumbing supplies and other goods and equipment for their personal use,
     the cost of which was billed to GSA.

     One of the GSA employees charged was a building manager who had
     been employed by GSA for over 30 years. She pled guilty to bribery after
     the investigation disclosed she had received over $18,000 in new
     windows and siding for her residence in exchange for providing favorable
     treatment to a GSA contractor, awarding over $80,000 in bogus contracts
     to the firm. Another GSA employee, a former maintenance supervisor,
     pled guilty to receiving more that $10,000 in cash from various GSA
     contractors in exchange for awarding several limited value contracts.

     To date, some individuals have been sentenced, including the owner and
     president of a construction firm who received 18 months incarceration.
     Over $60,000 in fines and restitution have been ordered, and the
     sentencing of several individuals involved is pending.

     Moving Services Vendor Settles Overbilling Charges
     The government negotiated a settlement with Ace Moving and Storage
     (Ace) to settle its civil False Claims Act liability. Ace held five contracts
     with GSA for the provision of transportation, labor, and related moving
     services to GSA and other Federal agencies in Pennsylvania and New
     Jersey. The investigation determined that during 1998 through 2002 Ace
     billed for hours not worked and for laborers working on separate move
     locations at the same time. Ace agreed to pay $54,000 to the
     government to settle its liability.

     Fleet Charge Card Abuse
     The GSA OIG has an ongoing proactive investigative project to identify
     and investigate fraud associated with the misuse of GSA-issued fleet
     charge cards. During this period, cases developed resulted in the
     sentencing of two former government employees.

     In the first instance, a joint investigation by the OIG and the National
     Railroad Passenger Corporation (Amtrak) OIG determined that an Amtrak
     employee was using a fleet card that had been assigned to a vehicle
     leased to Amtrak to purchase gas for other motorists in exchange for
     cash. The employee pled guilty to theft charges and was sentenced to a
     one year suspended sentence and one year probation, and ordered to
     pay restitution.




                                                      Office of Inspector General 25
                              Promoting and Protecting Integrity





                                       In a second instance, an investigation revealed that a former Veteran’s
                                       Administration (VA) employee used five fleet cards that had been
                                       assigned to vehicles leased to the VA to purchase gas for his personal
                                       car and various other non-government cars. The employee pled guilty to
                                       charge card abuse and was sentenced to pay $22,257 in restitution,
                                       12 months incarceration, and three years supervised release.

                                       Theft of Government Funds
                                       An investigation found that the president of Techneon International, a tool
                                       company, was paid over $90,000 for tools that he did not supply to GSA
                                       and its customers. He pled guilty to theft of government funds and
                                       making false statements. He was sentenced to 25 months in prison,
                                       three years supervised release, and ordered to pay restitution in the
                                       amount of $90,741.

                                       Theft of Donated Property
                                       An investigation found that a former board member of a Nebraska state
                                       agency fraudulently obtained Federal surplus property through GSA’s
                                       surplus property program. The member obtained property on at least
                                       58 occasions for this state agency and then diverted the property for his
                                       own use and the use of others. The individual was sentenced in U.S.
   Public officials                    District Court to six months home detention, five years probation,
                                       250 hours community service, and ordered to pay restitution of $15,233.
    convicted of
  diverting Federal                    Another investigation found that a former president of a Missouri township
  surplus property.                    acquired tools and equipment from GSA’s surplus property program,
                                       allegedly for his township. He never placed these items into use as
                                       required by the program, but kept them at his home for his own use. He
                                       pled guilty in U.S. District Court to stealing surplus Federal property and
                                       was ordered to pay restitution in the amount of $2,859. As part of the
                                       plea agreement, he was also ordered to return the diverted equipment.

                                       Two GSA Contractors Sentenced for Bribery of GSA Official
                                       As the result of an OIG investigation, two GSA contractors were
                                       sentenced in U.S. District Court for bribing a GSA official. The bribes and
                                       gratuities were paid to a GSA building management specialist in
   GSA contractors                     connection with GSA renovation and construction contracts in excess of
    sentenced for                      $11 million. One contractor was sentenced to two years probation and
     bribery on                        ordered to pay a $10,000 fine; the other contractor was sentenced to one
                                       year probation, ordered to pay $2,000 in restitution, and fined.
   renovation and
    construction                       The investigation was initiated when a contractor complained to a GSA
      projects.                        manager that a building management specialist had solicited a bribe in
                                       exchange for awarding a maintenance contract at a Federal building. In
                                       addition to these contractors, six GSA building management specialists
                                       and six other GSA contractors were arrested on bribery charges as a


26 Semiannual Report to the Congress
                     Promoting and Protecting Integrity





                          result of this investigation. As previously reported, all have been
                          convicted and sentenced for their involvement in this matter.

                          Sixty-One Illegal Aliens Arrested
                          An investigation was initiated when it was alleged that a subcontractor
                          working on a GSA construction project had instructed its employees, who
                          were not legally authorized to work in the United States, to use false
                          social security numbers and identities to qualify for employment. The
                          subcontractor was performing work for a contractor who was building a
                          new Federal courthouse in Miami. During a joint task force operation,
                          61 illegal aliens were arrested on the GSA construction site and were
                          turned over to the U.S. Department of Homeland Security, Immigration
                          and Customs Enforcement. To date, 39 individuals have been convicted
                          and were deported. The investigation is ongoing with respect to the
                          contracting companies involved.

                          Counterfeit Police Badges and Identification Cards
    Individual            A joint investigation with the Police Impersonation Unit of the Internal
  sentenced for           Affairs Bureau of the New York City Police Department disclosed that an
                          individual possessed and was producing counterfeit identification cards
 manufacturing            and badges of Federal law enforcement officers. Thousands of false
  thousands of            identification documents and badges of various enforcement agencies
counterfeit police        were found in the individual’s possession. The individual was sentenced
                          in U.S. District Court to 27 months incarceration, eight years supervised
   badges and             probation, and ordered to pay restitution of $2,000 after pleading guilty to
  identification          fraud in connection with identification documents and information.
      cards.
                          Realty Specialist Pleads Guilty to Conflict of Interest
                          An investigation found that immediately upon a former GSA realty
                          specialist’s retirement, she went to work for a company with whom she
                          had negotiated leases valued at approximately $18 million on behalf of
                          the government. She pled guilty in U.S. District Court to conflict of
                          interest charges and was sentenced to one year probation and ordered to
                          pay a fine.

                          Integrity Awareness
                          The OIG presents Integrity Awareness Briefings nationwide to educate
                          GSA employees on their responsibilities for the prevention of fraud and
                          abuse and to reinforce employees’ roles in helping to ensure the integrity
                          of Agency operations.

                          This period, we presented four briefings attended by 115 regional
                          employees. These briefings explain the statutory mission of the OIG and
                          the methods available for reporting suspected instances of wrongdoing.
                          In addition, through case studies, the briefings make GSA employees



                                                                          Office of Inspector General 27
                              Promoting and Protecting Integrity





                                       aware of actual instances of fraud in GSA and other Federal agencies
                                       and thus help to prevent their recurrence. GSA employees are the first
                                       line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings encourage employees to use the Hotline. We also
                                       developed and use our FraudNet Hotline platform to allow Internet
                                       reporting of suspected wrongdoing. During this reporting period, we
                                       received 882 Hotline contacts. Of these contacts, 159 Hotline cases were
                                       initiated. In 97 of these cases, referrals were made to GSA program
                                       officials for review and action as appropriate, 17 cases were referred to
                                       other Federal agencies for follow-up, 23 were referred for OIG
                                       criminal/civil investigations or audits, and 22 did not warrant further
                                       review.

                                       Significant Preaward and Other Audits
                                       The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
                                       nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting officers,
                                       enabling them to significantly improve the government’s negotiating
                                       position and to realize millions of dollars in savings on negotiated
                                       contracts. This period, the OIG performed preaward audits of
                                       57 contracts with an estimated value of $1.4 billion. The audit reports
                                       contained $327 million in financial recommendations.

                                       Three of the more significant Multiple Award Schedule contracts we
                                       audited had projected governmentwide sales totaling $464 million. The
                                       audit findings recommended that $284 million in funds be put to better
                                       use. The audits disclosed that these vendors offered prices to GSA that
                                       were not as favorable as the prices other customers receive from these
                                       vendors.

                                       We audited a number of claims for increased costs for construction
                                       projects. Three of the more significant projects audited contained
                                       proposed amounts totaling $18 million, and our audits of the claims
                                       recommended adjustments of over $13 million. Our audits of several
                                       subcontractors on one construction project found that the claimed
                                       amounts were not supported by the companies’ records. In other audits
                                       of claims for increased costs due to delays or changes, we adjusted costs
                                       because the claimed amounts were either overstated or unsupported.




28 Semiannual Report to the Congress
Promoting and Protecting Integrity





     Federal Managers’ Financial Integrity Act Review
     The Federal Managers’ Financial Integrity Act (FMFIA), Section 2,
     requires GSA management to provide assurance to the President and the
     Congress that Agency resources are protected from fraud, waste,
     mismanagement, and misappropriation.

     The Regional Administrators’ and Heads of Services and Staff Offices’
     assurance statements are used by the Agency’s Management Control
     Oversight Council as a basis for developing the Administrator’s assurance
     statement.

     Each year, we review the Agency’s FMFIA process to assess the
     completeness of management’s reporting of known significant
     weaknesses and deficiencies. For FY 2003, the Regional Administrator,
     Heartland Region, the Federal Technology Service (FTS) Commissioner,
     and the Chief Financial Officer (CFO) raised concerns related to the
     March 2003 OIG Alert Report regarding the use of Client Support Center
     task orders in Region 10. The report disclosed numerous inappropriate
     contract practices caused by a lack of management control and oversight
     coupled with an overriding effort to maximize revenue for FTS. As this
     was an Alert Report, no formal recommendations were made. However,
     the CFO’s assurance statement noted it had formed a partnership with
     FTS to initiate a contractual review of the contract processes and to
     provide financial counsel as appropriate.

     In our FMFIA report, we highlighted several additional OIG audits of
     contract administration performed during FY 2003. One audit found that,
     due to a declining staff and insufficient operating budget, Public Buildings
     Service (PBS) offices are utilizing high-risk business solutions to obtain
     lease acquisition services through the use of brokerage contracts. These
     practices weakened internal controls and made the risk of undetected
     fraud unacceptably high.

     OIG audits performed in GSA’s Regional Offices also identified issues
     with PBS contract administration of construction projects. Specifically,
     one review performed in the Southeast Sunbelt Region found that officials
     improperly used the Source Selection method, resulting in not selecting
     the most suitable construction contractors for the project, and that overall
     project administration was not effective. Another review performed in the
     Rocky Mountain Region found that PBS had not ensured compliance with
     the terms of a service contract, thereby inadequately protecting the
     government’s interests.

     The CFO’s assurance statement also raised concerns related to the user
     controls associated with the implementation of Pegasys as GSA’s




                                                     Office of Inspector General 29
                              Promoting and Protecting Integrity





                                       financial system of record. The CFO noted that problems were identified
                                       in processing payments, which required manual payments outside of the
                                       system. Additionally, the CFO reported that the validation and
                                       reconciliation of some accounts were not completed as timely as
                                       necessary and that financial reports are now less precise than in prior
                                       years.

                                       FMFIA, Section 4 relates to the CFO’s disclosure of nonconformances
                                       with Federal financial management system policies and standards. We
                                       determined that the CFO had completely and accurately disclosed
                                       nonconformances regarding:

                                       •	 the need to strengthen monitoring controls surrounding financial
                                          management systems;

                                       •	 the need to further strengthen network and application security
                                          controls; and

                                       •	 the need to improve the development, implementation, and change
                                          controls over GSA’s financial applications.

                                       We noted, however, that the Financial Management Systems Review
                                       Questionnaire could be improved by including OMB Circular A-127
                                       requirements for ongoing maintenance of financial systems.

                                       Financial Statement Audit and Related Reviews
                                       With the passage of the Chief Financial Officer’s Act of 1990, Congress
                                       and the Office of Management and Budget (OMB) have established a
                                       framework for financial audits and reviews designed to enhance the
                                       Federal Government’s financial management and reporting practices.
                                       Summarized below are the results of our financial and financial-related
                                       reviews.

                                       As in past years, the Financial Statement audit was performed by an
                                       independent public accounting firm, with oversight, support work, and
                                       guidance provided by the OIG. In its qualified opinion on the
                                       effectiveness of internal controls over financial reporting, the firm
                                       identified a material weakness concerning GSA’s need to strengthen
                                       monitoring controls surrounding the Agency’s financial management
                                       systems. During its testing of internal controls, the firm noted that certain
                                       monitoring controls were not clearly defined or were not implemented in a
                                       timely manner. Specifically, the firm identified a number of issues
                                       involving key reconciliations, including a lack of policies and procedures
                                       for the performance of key reconciliations, a lack of sufficient
                                       documentation and evidence of supervisory review, and several instances
                                       in which key reconciliations were not completed in a timely manner.


30 Semiannual Report to the Congress
Promoting and Protecting Integrity





     In addition to the material weakness noted above, the firm identified four
     reportable conditions concerning GSA’s need to:

     •	 Further strengthen network and application security controls.

     •	 Improve development, implementation, and change controls over
        GSA’s financial applications.

     •	 Improve controls over transferring substantially complete construction-
        in-process projects.

     •	 Improve contracting practices in the FTS Office of IT Solutions.

     The firm also identified two instances of non-compliance with laws and
     regulations concerning:

     •	 Contracting practices in the FTS Office of IT Solutions; and

     •	 The Federal Financial Management Improvement Act (FFMIA), as it
        relates to GSA’s compliance with Federal financial systems.

     Testing Controls Over Performance Measures
     The OIG conducted the portion of GSA’s FY 2003 Financial Statement
     Audit related to internal controls over performance measures. Our report
     identified a reportable condition regarding the need for the CFO to verify
     and ensure the reliability of the data supporting the performance
     measures. While progress was made in FY 2002 to develop a process to
     assess controls over performance measure data, the report found that,
     because of staffing limitations, this process was not fully implemented for
     all Services and Staff Offices on a rotational basis during FY 2003.

     Evaluation of Specific Performance Measures
     As part of the financial statement audit process and in accordance with
     the provisions of OMB Bulletin No. 01-02, the OIG also performed an
     assessment of internal controls over the existence and completeness of
     data supporting specific performance measures for the CFO and PBS.

     In the review of the CFO’s performance measure for “Percentage of
     Invoices Received Electronically,” we found that there is a low risk that
     internal controls would not provide reasonable assurance that the data
     supporting the specific measure exist and are complete. However, in our
     review of PBS’ performance measure, “Cost for Leased Space Relative to
     Market (Weighted Average for Four Categories)”, we identified a medium
     risk that the internal control processes used by PBS would not provide
     reasonable assurance that the data supporting the measure exist and are
     complete. The assessment of medium risk stemmed from the fact that



                                                     Office of Inspector General 31
                              Promoting and Protecting Integrity





                                       PBS has not implemented a comprehensive process requiring the
                                       Regional Offices to review applicable performance data in order to
                                       establish if it should be included in the determination of performance
                                       measures. In addition, PBS has not implemented a comprehensive
                                       process by which its Office of Business Operations monitors the
                                       effectiveness of internal control systems to ensure accurate performance
                                       data.

                                       Agreed-Upon Procedures Reviews
                                       In support of the Financial Statement Audit, we performed agreed-upon
                                       procedures reviews over GSA’s FY 2003 environmental liabilities and
                                       legal loss contingencies. In accordance with the provision of OMB
                                       Bulletin No. 01-02, we also performed an agreed-upon procedures review
                                       to assist OPM in assessing the reasonableness of retirement, health
                                       benefits, life insurance withholdings and contributions, and semiannual
                                       headcount information submitted by GSA.




32 Semiannual Report to the Congress
                 Governmentwide Policy Activities





                      We regularly provide advice and assistance on governmentwide policy
                      matters to the Agency, as well as to other Federal agencies and to
                      committees of Congress. In addition, as required by the Inspector
                      General Act of 1978, we review existing and proposed legislation and
                      regulations to determine their effect on the economy and efficiency of the
                      Agency’s programs and operations and on the prevention and detection
                      of fraud and mismanagement. Because of the central management role
                      of the Agency in shaping governmentwide policies and programs, most of
                      the legislation and regulations reviewed invariably impact
                      governmentwide issues in areas such as procurement, property
                      management, travel, and government management and information
                      technology systems.

                      This period, we provided advice and assistance to the Office of
Interagency           Management and Budget (OMB) on various procurement policy issues,
Committees and        particularly in the area of time-and-materials or labor-hours contracts.
Working Groups
                      In addition, we participated on a number of interagency committees and
                      working groups that deal with cross-cutting and governmentwide issues:

                      •	 The Assistant Inspector General (AIG) for Auditing represents all
                         civilian government agencies on the Cost Accounting Standards Board,
                         an independent board within OMB’s Office of Federal Procurement
                         Policy, which promulgates, amends, and revises Cost Accounting
                         Standards designed to achieve uniformity and consistency in cost
                         accounting practices by individual government contractors.

                      •	 The AIG for Investigations serves as the Chair of the Assistant
                         Inspectors General for Investigations Subcommittee. This
                         subcommittee reports to the the President’s Council on Integrity and
                         Efficiency (PCIE) Investigative Committee. The subcommittee deals
                         with investigative issues that affect all OIG Offices of Investigations,
                         such as statutory law enforcement, peer review, and coordinated
                         assistance to the Department of Justice.

                      •	 OIG audit representatives participate in the PCIE IT Roundtable to
                         address specialized security training and overall IT security issues
                         based on IT information security audits. At a recent workshop focusing
                         on best practices in meeting IG responsibilities associated with the
                         Federal Information Security Management Act (FISMA), our staff
                         presented information on the benefits and lessons learned with their
                         use of a commercially available software tool to test technical controls
                         for GSA’s systems reviewed for FISMA.

                      •	 Our TeamMate Technical Support Group participates in the TeamMate
                         Federal Users Group and the PricewaterhouseCoopers TeamMate



                                                                       Office of Inspector General 33
                               Governmentwide Policy Activities





                                         Users Group to discuss concerns and new challenges facing

                                         TeamMate users. TeamMate is an automated audit workpaper

                                         management system designed to make the audit process more

                                         efficient. 


                                       •	 The Special Assistant to the AIG for Auditing represents GSA on the
                                          White House Commission on the National Moment of Remembrance.
                                          The Commission was established to enhance the legacy of Memorial
                                          Day as a day to honor those who have sacrificed their lives for the
                                          principles of freedom and liberty. Major initiatives included
                                          Commission activities on Federal, state, and local government Web
                                          sites; and seeking the participation of Federal employees, retirees, and
                                          benefit recipients.

                                       •	 OIG Audit representatives provided advice and assistance to the
                                          Electronic Records Policy Working Group — an interagency working
                                          group focused on improving the management of electronic records.
                                          The working group was established by the Interagency Committee on
                                          Government Information, one of three committees formed as part of
                                          the E-Gov Act of 2002, and has held a series of public meetings to
                                          obtain views from the public and Federal agencies.

                                       •	 The Inspector General (IG) serves on the Human Resources and
                                          Legislation Committees of the PCIE. The Human Resources
                                          Committee fosters educational opportunities for members of the IG
                                          community and assists in ensuring the professional development of
                                          OIG personnel. The Legislation Committee develops, coordinates, and
                                          represents to Congress official PCIE positions on particular legislative
                                          issues.

                                       •	 The IG serves as Editor-in-Chief of The Journal of Public Inquiry, a
                                          semiannual publication of the Federal IG community. The Fall/Winter
                                          issue marked the 25th Anniversary of the Inspector General Act with
                                          articles by former Senators John Glenn and William Roth, Jr., PCIE
                                          Chair Clay Johnson III, and Vice Chairs Gaston Gianni, Jr., and
                                          Barry R. Snyder. The issue also recognized the contributions of other
                                          Federal entities created in 1978 with articles on the 25th Anniversary of
                                          the Ethics in Government Act and the Contract Disputes Act of 1978.
                                          Also included were articles on OIG auditor and investigator core
                                          competencies, the theft and misuse of government information, and the
                                          history of the IG dating back to the American Revolutionary War.




34 Semiannual Report to the Congress
                  Governmentwide Policy Activities





Legislation and        During this reporting period, the OIG reviewed 131 legislative matters and
Regulations            16 proposed regulations and directives. The OIG specifically commented
                       on the following legislative and other items:

                       •	 FAR Case 2000-305 – Commercially Available Off-the-Shelf Items and
                          List of Inapplicable Statutes. This proposed rule would have exempted
                          commercially available off-the-shelf (COTS) items procurements from
                          an additional set of statutes, including the Comptroller General’s audit
                          authority and the Trade Agreements Act. We noted that many
                          procurements under GSA’s Multiple Award Schedule (MAS) program
                          would qualify as COTS items procurements for purposes of the
                          regulation. We expressed our view that eliminating these provisions’
                          applicability to COTS items procurements would not be in the
                          government’s best interests. Specifically, we pointed out that the
                          Comptroller General’s audit authority, embodied in 41 U.S.C. § 254(d)
                          and 10 U.S.C. § 2513(c) as well as 48 C.F.R. § 52.215(d), is the last
                          remaining general contractual audit authority applicable to commercial
                          items contracts, and that it is important to preserve this authority. In
                          this connection, we noted that audit authorities applicable to MAS
                          contracts were severely limited in scope in 1997, and that the Federal
                          Acquisition Regulation (FAR) Audit-Negotiation clause was made
                          inapplicable to commercial items contracts by the Federal Acquisition
                          Streamlining Act, Public Law 103-355 (1994). We also noted that the
                          rule proposed to eliminate the applicability of the Trade Agreements Act
                          (TAA) as to COTS items procurements. The TAA applies to MAS
                          commercial item procurements, and generally prohibits acquisition of
                          products from nondesignated countries. We noted that the Office of
                          the United States Trade Representative opposed this measure, and
                          that we deferred to its comments on the underlying trade policy issues.
                          We did point out, however, that public comments suggested that a
                          reason to eliminate the TAA’s applicability was that the statute is
                          obsolete and is not observed or enforced; in this connection, we noted
                          that the OIG has active, pending investigations and cases where the
                          primary allegations are violations of the TAA.

                       •	 FAR Case 2001-018 – Proposed Rule Regarding Applicability of the
                          Cost Principles and Penalties for Unallowable Costs. We provided
                          comments to the FAR Council on the above-captioned proposed rule
                          that would narrow the applicability of FAR Part 31 cost principles to
                          those fixed-price contracts where cost analysis is performed and where
                          cost and pricing data is obtained. Currently, the cost principles apply to
                          such contracts if cost analysis is performed regardless of whether such
                          data is obtained. We noted that a proposed new FAR Part 31
                          definition of fixed-price contract, which would include “the fixed hourly-
                          rate portion of time-and-materials and labor-hour contracts” would
                          engender further confusion in the acquisition community over time-and-



                                                                       Office of Inspector General 35
                               Governmentwide Policy Activities





                                         materials task orders (including task orders under GSA’s MAS program
                                         in particular) and their appropriate use. We recommended that the
                                         definition be eliminated or that it be made clear that the definition is
                                         limited to FAR Part 31. In addition, we noted that the FAR Council
                                         should make clear that the rule did not impact the underlying statutory
                                         authorities regarding obtaining cost and pricing data.

                                       • Draft FY 2003 OMB Report to Congress on Federal Government’s
                                         Information Security Management. We provided comments to OMB
                                         regarding the agency summary portion of the above-captioned draft
                                         OMB report to Congress. We clarified that vulnerability scanning by
                                         the OIG indicated that GSA had some weaknesses in its IT system
                                         security; a statement in the draft report noted that GSA had developed
                                         and complied with specific configuration requirements, including
                                         patching of known vulnerabilities. We also noted that a statement
                                         regarding GSA’s efforts to verify all weaknesses are appropriately
                                         included in future Plans of Action and Milestones Reports (POA&M)
                                         was not attributable to the OIG review, and that the OIG had not
                                         confirmed the agency’s efforts in this regard.

                                       • FSS Negotiations Guidance. We provided input to FSS in drafting a
                                         guidance document intended for contracting officers (COs) relating to
                                         negotiating most-favored customer pricing and other terms and
                                         conditions under GSA’s MAS contracts. This input was provided
                                         through an MAS working group comprised of both FSS and OIG
                                         employees. Generally, we noted that additional guidance on MAS
                                         negotiations was advisable. Specifically, we commented that the draft
                                         guidance should emphasize more directly the regulatory pricing goal of
                                         achieving most-favored customer pricing. We also had a number of
                                         comments having to do with coverage regarding how COs should
                                         interpret and negotiate against a vendor’s pricing to other large
                                         commercial or corporate customers. FSS has noted that it plans to
                                         incorporate this guidance into mandatory training for its contracting
                                         officers.

                                       • Quick-Mods Pilot Proposal. We provided FSS with comments on its
                                         proposal to implement a Quick-Mods initiative for information
                                         technology (IT) products under MAS contracts. The pilot would allow
                                         vendors to add or substitute upgraded IT products more quickly at
                                         prenegotiated markups or discounts through a streamlined, electronic
                                         process. This process is intended to eliminate much of the
                                         administrative burden on GSA COs associated with processing
                                         modifications for product additions or substitutions. We noted our
                                         general support for the pilot and the notion of electronic contracting
                                         generally, but repeated our view that such a pilot should include proper
                                         safeguards. For example, we noted that FSS could seek audit



36 Semiannual Report to the Congress
Governmentwide Policy Activities





       assistance when appropriate to ensure that vendors are complying with
       Quick-Mods requirements. We also noted that it should be
       emphasized to COs that the scope of Quick-Mods will not encompass
       unique or new products for which a preexisting discount has not been
       negotiated; such products, we noted, are properly subject to the
       existing paper-based modifications procedure which requires, among
       other things, that a vendor provide supporting pricing information and
       that the CO approve the addition of the products in advance.

     •	 Acquisition Planning – GSA Draft Directive. We provided GSA with
        comments on draft changes to acquisition planning requirements. We
        noted our support for changes to the order that imposed additional
        acquisition planning requirements, especially in the area of IT
        procurements. Our comments related to the advisability of a new
        provision that would require a comprehensive acquisition plan for first
        time or unique acquisitions regardless of dollar level. We noted that
        GSA might want to consider adding language that provides that the
        requirement would apply in instances where the procurement was
        expected to exceed a particular dollar amount or materiality threshold.




                                                    Office of Inspector General 37
                               Professional Assistance Services





                                       The General Accounting Office recently issued a revision to the
                                       independence standard contained in the Government Auditing Standards.
                                       This amendment prohibits Federal audit organizations from performing
                                       certain types of management consulting projects because they may
                                       impair the independence of the auditors when performing subsequent
                                       audit work in the same area. Although we have always maintained our
                                       independence when working closely with GSA management, we are no
                                       longer performing consulting assignments and are carefully assessing our
                                       services to meet the new standard. As allowed under the new standard,
                                       we are continuing our participation on Agency improvement task forces,
                                       committees, and working groups in an observer or advisory capacity.

                                       Task Forces, Committees, and Working Groups. The OIG provides
                                       advice and counsel to GSA while monitoring ongoing Agency initiatives.
                                       Our representatives advise management at the earliest possible
                                       opportunity of potential problems, help ensure that appropriate
                                       management controls are provided when installing new or modifying
                                       existing Agency systems, and offer possible solutions when addressing
                                       complex financial issues.

                                       Our direct participation with the Agency on task forces, committees, and
                                       working groups allows us to contribute our expertise and advice, while
                                       improving our own familiarity with the Agency’s rapidly changing systems.
                                       We also benefit by expanding our new initiatives within the Federal
                                       community. We nevertheless maintain our ability to independently audit
                                       and review programs. Our participation on the task forces is typically as
                                       a non-voting advisory member. We maintain a strict policy of excluding
                                       staff members who have served on developmental task forces from
                                       subsequent audits of the same subject areas.

                                       Some areas in which we have been involved this period include:

                                       •	 Single Audit Activities. The Single Audit Act established uniform
                                          audit requirements for state and local governments receiving Federal
                                          awards. The non-Federal entities that receive Federal awards under
                                          more than one Federal program are required to undergo a single audit
                                          to prevent duplicate audits and inefficiencies. Each Federal agency
                                          monitors the non-Federal entity’s use of awards provided by the
                                          Agency, and assesses the quality of the audits conducted relative to its
                                          program. The OIG monitors these activities as they relate to the
                                          personal property disposal program.

                                       •	 The Information Technology (IT) Council. The Council monitors
                                          policies and programs to ensure IT consistency throughout the Agency.
                                          It is comprised of the Chief Information Officers of the various GSA
                                          Services and Staff Offices. Representatives of our office participate in



38 Semiannual Report to the Congress
Professional Assistance Services





      meetings at the request of the Agency on such matters as systems
      controls, architecture, security, or new legislative requirements.

    •	 Multiple Award Schedule Working Group. The Multiple Award
       Schedule (MAS) Working Group was established as a result of a
       Special Report the OIG released in August 2001 relating to MAS
       contracting pricing practices — MAS Pricing Practices: Is FSS
       Observing Regulatory Provisions Regarding Pricing? (August 24,
       2001). That report found that GSA was not consistently negotiating
       most-favored customer pricing, was extending contracts without
       adequate price analyses, and was not effectively using preaward audits
       to negotiate prices. The MAS Working Group is primarily comprised of
       members of the Federal Supply Service (FSS) and the OIG with
       representation also from the Office of General Counsel, and the Office
       of Acquisition Policy. The Working Group meets regularly and serves
       as a standing forum for discussion and resolution of issues or concerns
       having to do with MAS contracting. It has served as an effective
       institutionalized communications channel for both broad policy issues
       and discrete issues having to do with particular contracts or audits.

      The Working Group has had several areas of focus including preaward
      contract audits and MAS negotiations issues. The Working Group has
      developed guidance to MAS contracting officers (COs) regarding the
      performance and use of preaward MAS contract audits. Further, the
      Working Group has reinvigorated the process for FSS and the OIG
      collaboratively selecting and commencing preaward audits of vendors,
      and has built into this process specific mechanisms for COs to request
      audits of particular vendors. The Working Group has also focused on
      issuing guidance to COs regarding negotiations objectives and discrete
      negotiations issues for MAS contract awards. The issues addressed
      relate to instances or concerns reflected in the OIG Special Pricing
      Report, and include, for example, useful strategies to negotiate using
      the government’s significant volume purchasing power. The Working
      Group also provided some input to FSS in its efforts to upgrade or
      enhance pricing performance measures on MAS contracts. In the
      future, the Working Group is considering systematically exploring other
      emerging MAS-related areas or concerns.




                                                  Office of Inspector General 39
                      Statistical Summary of OIG Accomplishments





                                       Audit Reports Issued
                                       The OIG issued 91 audit reports during this reporting period. The reports
                                       contained financial recommendations totaling $328,162,191, including
                                       $327,549,488 in recommendations that funds be put to better use and
                                       $612,703 in questioned costs. Due to GSA’s mission of negotiating
                                       contracts for governmentwide supplies and services, most of the savings
                                       from recommendations that funds be put to better use would be
                                       applicable to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of March 31, 2004. There were no reports more than six
                                       months old awaiting management decisions as of March 31, 2004.
                                       Table 1 does not include 6 reports issued to other agencies this period.
                                       Table 1 also does not include 6 reports excluded from the management
                                       decision process because they pertain to ongoing investigations.




                       Table 1. Management Decisions on OIG Audits
                                                                         Reports with        Total
                                                         No. of            Financial       Financial
                                                        Reports        Recommendations Recommendations

    For which no management decision
    had been made as of 10/1/03
      Less than six months old                             29                  18               $ 15,135,507
      Six or more months old                                0                   0                          0
    Reports issued this period                             85                  42                328,053,318
    TOTAL                                                 114                  60               $343,188,825
    For which a management decision
    was made during the reporting period
      Issued prior periods                                 29                  18               $ 15,135,507
      Issued current period                                35                  12                 25,067,052
    TOTAL                                                  64                  30               $ 40,202,559
    For which no management decision
    had been made as of 3/31/04
      Less than six months old                             50                  30               $302,986,266
      Six or more months old                                0                   0                          0
    TOTAL                                                  50                  30               $302,986,266




40 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments





                           Management Decisions on Audit Reports with
                           Financial Recommendations
                           Tables 2 and 3 present the audits identified in Table 1 as containing
                           financial recommendations by category (funds to be put to better use or
                           questioned costs).




          Table 2. Management Decisions on OIG Audits with
          Recommendations that Funds be Put to Better Use

                                                   No. of                     Financial
                                                  Reports                 Recommendations

For which no management decision had
been made as of 10/1/03
  Less than six months old                           18                    $ 15,135,507
  Six or more months old                              0                               0
Reports issued this period                           36                     327,440,615
TOTAL                                                54                    $342,576,122
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  •management action                                 —                     $ 39,957,800
  •legislative action                                —                               —
  Recommendations not agreed to
  by management                                      —                             253
TOTAL                                                29                    $ 39,958,053
For which no management decision had
been made as of 3/31/04
  Less than six months old                           25                     $302,618,069
  Six or more months old                              0                                0
TOTAL                                                25                     $302,618,069




                                                                         Office of Inspector General 41
                      Statistical Summary of OIG Accomplishments





                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                No. of               Questioned
                                               Reports                 Costs

          For which no management decision
          had been made as of 10/1/03
            Less than six months old               0                 $      0
            Six or more months old                 0                        0
          Reports issued this period               6                  612,703
          TOTAL                                    6                 $612,703
          For which a management decision
          was made during the reporting
          period
            Disallowed costs                      —                  $244,506
            Costs not disallowed                  —                         0
          TOTAL                                   1                  $244,506
          For which no management decision
          had been made as of 3/31/04
            Less than six months old               5                 $368,197
            Six or more months old                 0                        0
          TOTAL                                    5                 $368,197




42 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments





                       Investigative Workload
                       The OIG opened 88 investigative cases and closed 82 cases during this
                       period. In addition, the OIG received and evaluated 32 complaints and
                       allegations from sources other than the Hotline that involved GSA
                       employees and programs. Based upon our analyses of these complaints
                       and allegations, OIG investigations were not warranted.

                       Referrals
                       The OIG makes criminal referrals to the Department of Justice or other
                       authorities for prosecutive consideration and civil referrals to the Civil
                       Division of the Department of Justice or U.S. Attorneys for litigative
                       consideration. The OIG also makes administrative referrals to GSA
                       officials on certain cases disclosing wrongdoing on the part of GSA
                       employees, contractors, or private individuals doing business with the
                       government.


                   Table 4. Summary of OIG Referrals

Type of Referral                           Cases                                        Subjects
Criminal                                      44                                           153
Civil                                         10                                            16
Administrative                                83                                           178
TOTAL                                       137                                            347


                       In addition, the OIG made 40 referrals to GSA officials for information
                       purposes only.

                       Actions on OIG Referrals
                       Based on these and prior referrals, 31 cases (118 subjects) were
                       accepted for criminal prosecution and 8 cases (12 subjects) were
                       accepted for civil litigation. Criminal cases originating from OIG referrals
                       resulted in 99 indictments/informations and 77 successful prosecutions1.
                       OIG civil referrals resulted in 4 case settlements. Based on OIG
                       administrative referrals, management debarred 21 contractors/individuals,
                       suspended 57 contractors/individuals, and took 29 personnel actions
                       against employees.

                       Note 1: Of the 99 indictments and 77 prosecutions, 61 indictments and 39 prosecutions
                       resulted from one case involving individuals illegally working at a GSA construction site.
                       This case is discussed on page 27.




                                                                                   Office of Inspector General 43
                      Statistical Summary of OIG Accomplishments





                                        Monetary Results
                                        Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                        and restitutions payable to the U.S. Government as a result of criminal
                                        and civil actions arising from OIG referrals.


                             Table 5. Criminal and Civil Recoveries
                                                          Criminal                       Civil

           Fines and Penalties                          $ 556,806                  $        —

           Settlements and Judgments                             —                  15,754,000

           Restitutions                                   1,127,247                         —

           TOTAL                                         $1,684,053               $15,754,000




                                        Table 6 presents the amount of administrative recoveries, recovered
                                        property, and savings as a result of investigative activities.



                                    Table 6. Other Monetary Results
            Administrative Recoveries                      $262,401

            Recovered Property                               10,744

            Investigative Savings                            26,528

            TOTAL                                          $299,673




44 Semiannual Report to the Congress
APPENDICES

                   Appendix I–Significant Audits from Prior Reports





Under the Agency audit management decision                   The remaining recommendations involve ensuring that
process, the GSA Office of the Chief Financial Officer,      all identified weaknesses are included and tracked in
Office of the Controller, is responsible for tracking the    the POA&M; prioritizing the development of key secu-
implementation of audit recommendations after a              rity documentation; developing ISAs, MOUs, and SIIPs
management decision has been reached. That office            for FSS-19 external connections; and completing
furnished the following status information.                  NACIC background investigations for all contractors
                                                             granted access. They are scheduled for completion
Fourteen audits highlighted in prior reports to the          between June 15, 2004 and November 15, 2004.
Congress have not yet been fully implemented; all are
being implemented in accordance with currently               Qualification Standards for
established milestones.                                      Acquisition Personnel
                                                             Period First Reported: April 1, 2003 to September 30, 2003
Control Reviews
Period First Reported: April 1, 2003 to September 30, 2003   The review assessed whether FTS’ acquisition person-
                                                             nel were meeting qualification standards. The report
A series of three control reviews covered a secured          contained three recommendations; one has been
item inventory, vehicle maintenance and repair costs,        implemented.
and construction project funding limitations. The
reports contained eight recommendations; four have           The remaining recommendations involve discussing
been implemented.                                            issues and addressing deviations from qualification
                                                             standards and training requirements, and ensuring per-
The remaining recommendations involve increasing
                                                             sonnel know the qualification standards and training
the height of the security fencing, ensuring consistent
                                                             requirements. They are scheduled for completion on
FMS data entry procedures, evaluating performance
                                                             May 15, 2004.
goals established for the National Maintenance Control
Center, and ensuring the judgment fund is not used to
fund change orders. They are scheduled for comple-
                                                             Construction Claims
tion between May 15, 2004 and July 15, 2004.                 Period First Reported: October 1, 2002 to March 31, 2003
                                                             The review examined construction claims. The report
Oversight of Performance-Based                               contained seven recommendations; five have been
Contracts                                                    implemented.
Period First Reported: April 1, 2003 to September 30, 2003
The review examined the administration of                    The remaining recommendations involve extending
performance-based services contracts. The report             overhead rates from potential contractors and requiring
contained one recommendation; it has not been                supervision of project personnel and documentation of
implemented.                                                 project files. They are scheduled for completion
                                                             between May 15, 2004 and July 15, 2004.
The recommendation involves issuing written guidance
and instructions to contracting personnel. It is sched-      PBS’ Use of Brokerage Contracts
uled for completion on July 15, 2004.                        Period First Reported: October 1, 2002 to March 31, 2003

FSS Automated Supply System                                  The review examined national and regional brokerage
(FSS-19) and Online System                                   services contracts. The report contained three
Capabilities                                                 recommendations; two have been implemented.
Period First Reported: April 1, 2003 to September 30, 2003
                                                             The remaining recommendation involves considering
The review evaluated the FSS automated supply                lessons learned from current and expired brokerage
system and online system capabilities. The report            contracts before committing to a new procurement
contained six recommendations; two have been                 strategy. A completion date will be provided to the OIG
implemented.                                                 upon determination of award and effective dates.
                                                                                          Office of Inspector General 47
                   Appendix I–Significant Audits from Prior Reports





FSS’ City Pair Program                                       Securing GSA’s E-Mail System
Period First Reported: October 1, 2002 to March 31, 2003     Period First Reported: April 1, 2002 to September 30, 2002
The review identified opportunities for improvements in      The review examined GSA’s electronic mail system
the City Pair Program. The report contained five             security. The report contained six recommendations;
recommendations; two have been implemented.                  four have been implemented.

The remaining recommendations require educating              The remaining recommendations involve conducting
contractors and travelers on the benefits of using dual      background investigations on contractor personnel and
fares, obtaining accurate and timely information to be       requiring password aging. They are scheduled for
used by program officials, and following through with        completion between May 15, 2004 and June 15, 2004.
the ad hoc committee recommendations. They are
scheduled for completion between May 15 and July 15,         Use of the Occupancy Agreement
2004.                                                        Period First Reported: October 1, 2001 to March 31, 2002

Consolidation of Distribution Centers                        The review examined rent billing records covered
                                                             by Occupancy Agreements (OA). The report contained
Period First Reported: October 1, 2002 to March 31, 2003
                                                             six recommendations; one has been implemented.
The review examined the operations of the FSS Stock
Program. The report contained two recommendations;           The remaining recommendations involve establishing
one has been implemented.                                    and supporting the OA, considering an electronic
                                                             signature requirement, measuring the time an OA
The remaining recommendation, which requires                 remains in draft status, tracking the variance between
developing access to reliable data for all delivery          OA projected rent and the actual billed rent, and
methods, is scheduled for completion on June 15,             including enough information on the OA to identify the
2005.                                                        space assigned. They are scheduled for completion on
                                                             June 15, 2004.
Billing and Payment Systems
Period First Reported: April 1, 2002 to September 30, 2002   Operating Equipment Inventories
                                                             Period First Reported: October 1, 2000 to March 31, 2001
The review examined controls over reimbursable work
authorizations (RWA) billings between GSA and other          The review focused on equipment maintenance
Federal agencies.      The report contained two              maintained by contractors. The report contained two
recommendations; one has been implemented.                   recommendations; one has been implemented.

The remaining recommendation involves incorporating          The remaining recommendation involves identifying
estimated cost data for planning workflow before and         the responsibility for maintenance programs to
during the RWA work process. It is scheduled for             contractors. It is scheduled for completion on
completion on June 15, 2004.                                 July 15, 2004.




48 Semiannual Report to the Congress
                           Appendix II–Audit Report Register


                                                                                  Financial
                                                                              Recommendations
                                                                          Funds to        Questioned
Date of      Audit                                                       Be Put to      (Unsupported)
Report       Number                  Title                               Better Use         Costs


(Note: Because some audits pertain to contract award or actions that
have not yet been completed, the financial recommendations to these
reports are not listed in this Appendix.)

PBS Internal Audits
10/20/03      A030086       Review of Background Suitability Checks
                            for Contract Employees

12/31/03      A030080       Review of PBS Portfolio Restructuring
                            Initiative

02/10/04      A030104       Audit of PBS Lease Oversight Practices

03/03/04      A030103       Audit of PBS’s New Construction Program

03/04/04      A030256       Limited Audit of the Public Buildings
                            Service’s Performance Measure: “Cost for
                            Leased Space Relative to Market
                            (Weighted Average for Four Categories)”

03/15/04      A030056       Audit of Contracting for Utility Services,
                            Public Buildings Service

PBS Contract Audits
10/08/03      A030209       Audit of Claim for Increased Costs:
                            Commonwealth Electric Company of the
                            Midwest, Subcontractor to The Clark
                            Construction Group, Inc., Contract Number
                            GS06P96GZC0508

10/09/03      A030244       Preaward Audit of Architect and
                            Engineering Design Services Contract:
                            Shalom Baranes Associates, Solicitation
                            Number GS11P02MKC0057

10/09/03      A030247       Preaward Audit of Architect and
                            Engineering Design Services Contract:
                            Syska Hennessy Group, Inc., Solicitation
                            Number GS11P02MKC0057

10/09/03      A030248       Preaward Audit of Architect and
                            Engineering Design Services Contract:
                            STUDIOS     Architecture,  Solicitation
                            Number GS11P02MKC0057


                                                                              Office of Inspector General 49
                               Appendix II–Audit Report Register


                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs


10/09/03        A030250         Preaward Audit of Architect and Engineering
                                Design Services Contract:        Thornton-
                                Tomasetti-Cutts LLC, Solicitation Number
                                GS11P02MKC0057

10/16/03        A030225         Preaward Audit of Claim:        AMEC
                                Construction Management, Inc., Contract
                                Number GS-11P96MKC0015

10/23/03        A030240         Preaward Audit of Architect and Engineering
                                Bridging     Design   Services    Contract:
                                GGA.Ehrenkrantz Eckstut & Kuhn Architects,
                                Solicitation Number GS-11P-02-MKC-0019

10/23/03        A030260         Preaward Audit of Architect and Engineering
                                Services Contract: Staunton Chow, P.C.,
                                Engineers & Architects, Solicitation Number
                                GS-02P-03-DTD-0012(N)

10/29/03        A030252         Preaward Audit of Architect and Engineering
                                Design Services Contract:            Place
                                Architecture, LLC, Solicitation Number
                                GS08P03JFC0021

11/04/03        A030261         Preaward Audit of Architect and Engineering
                                Services Contract:        Perkins Eastman
                                Architects, P.C., Solicitation Number GS-
                                02P-03-DTD-0008(N)

11/25/03        A030228         Preaward Audit of a Change Order Proposal:
                                United    Technology     Service,    Inc.,
                                Subcontractor to J.A. Jones Construction
                                Group, LLC, Contract Number GS-02P-99-
                                DTC-0006

12/05/03        A030241         Audit of Claim for Increased Costs: BPI
                                Mechanical, Inc., Subcontractor to AMEC
                                Construction Management, Inc., Contract
                                Number GS-11P-96-MKC-0015

12/11/03        A030220         Audit of Claim for Increased Costs: The
                                Waldinger Corporation, Subcontractor to
                                The Clark Construction Group, Inc.,
                                Contract Number GS06P96GZC0508



50 Semiannual Report to the Congress
                     Appendix II–Audit Report Register


                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number             Title                                 Better Use         Costs


12/12/03   A040087   Preaward Audit of Architect and
                     Engineering Services Contract: Holabird
                     and Root, LLC, Contract Number
                     GS11P03MKC0037

12/16/03   A040088   Preaward Audit of Architect and
                     Engineering Services Contract: Wiley &
                     Wilson, Inc.; Solicitation Number GS-11P-
                     03-MKC-0037

12/31/03   A030172   Preaward Audit of a Claim:             Cord
                     Contracting Co., Inc., Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract
                     Number GS-02P-99-DTC-0006(N)

12/31/03   A030215   Preaward Audit of a Claim:           A&L
                     Construction Corporation, Subcontractor to
                     J.A. Jones Construction Group, LLC,
                     Contract    Number      GS-02P-99-DTC-
                     0006(N)

01/12/04   A040067   Audit of Claim for Increased Costs: C.J.
                     Coakley Co., Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract
                     Number GS-11P-96-MKC-0015

01/12/04   A040098   Preaward Audit of Supplemental Architect
                     and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation
                     Number GS-05P-03-GBD-0072

01/15/04   A030155   Preaward Audit of a Claim:         LBL
                     Skysystems, Inc., Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract
                     Number GS-02P-99-DTC-0006(N)

01/16/04   A030234   Preaward Audit of a Claim:         KSW
                     Mechanical Services, Inc., Subcontractor
                     to J.A. Jones Construction Group, LLC,
                     Contract   Number      GS-02P-99-DTC-
                     0006(N)

01/29/04   A030223   Preaward Audit of Claim: John J. Kirlin,
                     Inc., Subcontractor to AMEC Construction
                     Management, Inc., Contract Number GS-
                     11P96MKC0015
                                                                         Office of Inspector General 51
                               Appendix II–Audit Report Register


                                                                                         Financial
                                                                                     Recommendations
                                                                                 Funds to        Questioned
Date of        Audit                                                            Be Put to      (Unsupported)
Report         Number                    Title                                  Better Use         Costs


02/03/04        A040119         Attestation Review of Supplemental Architect
                                and Engineering Services Contract: Julie
                                Snow Architects, Inc., Solicitation Number
                                GS-05P-03-GBD-0072

02/04/04        A040101         Preaward Review of Cost or Pricing Data:
                                National Institute of Building Sciences,
                                Solicitation Number GS-11P-04-MKD-0012

03/01/04        A030259         Preaward Audit of a Claim: Airflex Industrial
                                Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number
                                GS-02P-99-DTC-0006(N)

03/05/04        A040129         Preaward Audit of Architect/Engineering
                                Proposal: Weinstein Architects and Urban
                                Designers, Solicitation Number GS-10P-04-
                                LTC-0009

03/16/04        A040107         Attestation Review of Architect and
                                Engineering Services Contract:    DBI
                                Architects,  P.C.,  Contract   Number
                                GS11P02ZGD0206

03/23/04        A030191         Preaward Audit of a Claim: Five Star Electric
                                Corp., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number
                                GS-02P-99-DTC-0006(N)

03/31/04        A030230         Preaward Attestation Review of a Claim:
                                Singleton Electric Company, Inc., a
                                Subcontractor to AMEC Construction
                                Management, Inc., Contract Number GS-
                                11P-96-MKC-0015

FSS Internal Audits
11/19/03        A030139         Review    of    Depot    Upgrades     and
                                Modernization, Federal Supply Service

02/02/04        A030174         Review of the Exclusion of the Economic
                                Price Adjustment Clause in FSS’ Hardware
                                SuperStore, Hardware Store Department
                                Multiple Award Schedule Contracts




52 Semiannual Report to the Congress
                      Appendix II–Audit Report Register


                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number              Title                               Better Use         Costs


03/18/04   A030131    Audit of the Procurement and Payment                              $6,685
                      Practices of GSA Fleet’s European
                      Operations

03/25/04   A030147    Audit of FSS’s Acquisition Workforce
                      Qualifications

03/26/04   A030143    Audit of FSS’s Travel Management Center
                      Services – Industrial Funding Fee

03/31/04   A030150    Audit of FSS Global Supply’s Special Order
                      Program

03/31/04   A030131    Audit of Duplicate European Autopay
                      Payments

FSS Contract Audits
10/01/03   A030229    Preaward Audit of Multiple Award Schedule
                      Contract Extension: Viecore FSD, Inc.,
                      Contract Number GS-35F-0072J

10/15/03   A030175    Preaward Audit of Multiple Award Schedule
                      Contract: Visionics Corporation, Contract
                      Number GS-07F-0112H

10/17/03   A030211    Preaward Audit of Multiple Award Schedule
                      Contract: Iowa Foundation for Medical
                      Care, Contract Number GS-35F-5831H

10/27/03   A030258    Preaward Audit of Multiple Award Schedule
                      Contract: Camber Corporation, Contract
                      Number GS-35F-5812H

10/29/03   A030156    Preaward Audit of Multiple Award Schedule
                      Contract: R.S. Information Systems, Inc.,
                      Solicitation Number FCIS-JB-980001-B

10/29/03   A030181    Limited Scope Postaward Audit of Multiple                       $283,816
                      Award Schedule Contract: R.S. Informa-
                      tion Systems, Inc., Contract Number GS-
                      35F-5355H

11/03/03   A040052    Limited Postaward Audit of Multiple Award                        $28,133
                      Schedule Contract: Camber Corporation,
                      Contract Number GS-35F-5812H
                                                                        Office of Inspector General 53
                               Appendix II–Audit Report Register


                                                                                        Financial
                                                                                    Recommendations
                                                                                Funds to        Questioned
Date of        Audit                                                           Be Put to      (Unsupported)
Report         Number                    Title                                 Better Use         Costs


11/13/03        A030246         Preaward Audit of Multiple Award Schedule
                                Contract Extension: Onboard Software Inc.,
                                Contract Number GS-35F-0117J

11/13/03        A030207         Preaward Audit of Multiple Award Schedule
                                Contract: Furniture by Thurston, Contract
                                Numbers GS-27F-2003B and GS-27F-
                                2004B

11/20/03        A040054         Preaward Audit of Multiple Award Schedule
                                Contract: The Public Strategies Group, Inc.,
                                Contract Number GS-10F-0023J

11/24/03        A030239         Preaward Audit of Multiple Award Schedule
                                Contract: BAE Systems Analytical Solutions,
                                Inc., Contract Number GS-10F-0016J

12/16/03        A030231         Limited Scope Postaward Audit of Multiple                      $244,506
                                Award Schedule Contract: Rodco-Brandt
                                Manufacturing, Contract Number GS-27F-
                                2008B

12/17/03        A040001         Preaward Audit of Multiple Award Schedule
                                Contract:    Concord       Communications,
                                Incorporated, Solicitation Number FCIS-JB-
                                980001B

12/17/03        A030168         Preaward Audit of Multiple Award Schedule
                                Contract:       Dynamic Systems, Inc.,
                                Solicitation Number FCIS-JB-980001B

12/18/03        A030268         Preaward Audit of Multiple Award Schedule
                                Contract Extension: Xerox Corporation,
                                Contract Number GS-15F-9537C

01/05/04        A030221         Preaward Audit of Multiple Award Schedule
                                Contract Extension: SAP Public Services,
                                Inc., Contract Number GS-35F-5891H

01/13/04        A030265         Interim Audit of Multiple Award Schedule
                                Contract:    BearingPoint, LLC, Contract
                                Number GS-23F-9796H




54 Semiannual Report to the Congress
                     Appendix II–Audit Report Register


                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number             Title                                Better Use         Costs


01/13/04   A040015   Preaward Audit of Multiple Award Schedule
                     Contract:  O’Gara-Hess & Eisenhardt
                     Armoring Company, Contract Number GS-
                     07F-0177J

01/14/04   A030198   Audit of Request for Equitable Adjustment:
                     HTI Titan Industries, Inc., Contract Number
                     GS-35F-4906G

01/30/04   A040093   Preaward Audit of Multiple Award Schedule
                     Contract: PKC Corporation, Contract
                     Number GS-35F-0244J

02/19/04   A040118   Attestation Review of Multiple Award
                     Schedule Contract: BTAS, Inc., Contract
                     Number GS-35F-0546J

02/25/04   A040049   Attestation Review of Preaward Multiple
                     Award Schedule Contract:            EG&G
                     Technical Services, Inc., Contract Number
                     GS-35F-5927H

03/02/04   A040004   Preaward Attestation Engagement Review
                     of Multiple Award Schedule Contract
                     Extension:    Black Box Corporation,
                     Contract Number GS-35F-0158J

03/09/04   A030186   Postaward Audit of Multiple Award                                 $46,805
                     Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the
                     Contract Period December 12, 1996
                     Through October 31, 2003

03/09/04   A040162   Price Adjustments on Multiple Award
                     Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the
                     Interim Period April 1, 2004 Through
                     September 30, 2006

03/12/04   A040082   Preaward Attestation Engagement Review
                     of Multiple Award Schedule Contract
                     Extension: ITT Industries, Inc., Advanced
                     Engineering & Sciences Division, Contract
                     Number GS-35F-0109J



                                                                        Office of Inspector General 55
                               Appendix II–Audit Report Register


                                                                                         Financial
                                                                                     Recommendations
                                                                                 Funds to        Questioned
Date of        Audit                                                            Be Put To      (Unsupported)
Report         Number                    Title                                  Better Use         Costs


03/16/04        A040086         Preaward Audit of Multiple Award Schedule
                                Contract: Lakeshore Learning Materials,
                                Contract Number GS-07F-0212J

03/19/04        A040105         Attestation Engagement Review of Multiple
                                Award Schedule Contract:       Rhombic
                                Systems, Inc., Contract Number GS-35F-
                                0461J

03/22/04        A040094         Preaward Attestation Engagement Review of
                                Multiple Award Schedule Contract Extension:
                                Thomasville Furniture Industries, Inc.,
                                Contract Number GS-27F-00131

03/24/04        A040128         Preaward Attestation Review of Multiple
                                Award Schedule Contract: 3H Technology,
                                LLC, Solicitation Number FCIS-JB-980001B

FTS Internal Audits
12/18/03        A030109         Review of FTS’ Wireless Telephone Service
                                Program

01/08/04        A020144         Audit of Federal Technology Service’s Client
                                Support Centers

02/11/04        A030002         Review of the Federal Technology Service’s
                                Third Generation System (3GS)

Other Internal Audits
10/30/03        A030237         Limited Audit of the Fiscal Year 2003 Federal
                                Managers’ Financial Integrity Act Section 2
                                Assurance Statements

12/03/03        A030256         Report on Internal         Controls    Over
                                Performance Measures

12/19/03        A030110         PricewaterhouseCoopers, LLP Fiscal Year
                                2003 EDP Management Letter

12/23/03        A030206         Audit of the Headquarters         Building’s
                                Security Office Program




56 Semiannual Report to the Congress
                      Appendix II–Audit Report Register


                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put To      (Unsupported)
Report     Number              Title                                Better Use         Costs


12/31/03   A030256    Limited Audit of the Office of the Chief
                      Financial Officer’s Performance Measure:
                      Percentage      of   Invoices   Received
                      Electronically

03/02/04   A030237    Limited Audit of the Chief Financial
                      Officer’s  Fiscal Year 2003 Federal
                      Managers’ Financial Integrity Act Section 4
                      Assurance Statement

03/10/04   A020054    Clinger-Cohen   Act     Implementation
                      Requires Commitment at all Levels

03/15/04   A020203    Review of GSA’s Process for Establishing
                      Lodging Per Diems

03/30/04   A020246    Audit of the GSA.gov Web Portal

03/31/04   A030110    Audit   of     the   General   Services
                      Administration’s Fiscal Years 2003 and
                      2002 Financial Statements

Non-GSA Internal Audits
10/22/03   A030154	   General Services Administration Office of
                      Inspector General’s Report on Applying
                      Agreed-Upon Procedures

11/17/03   A030110	   Report      on Applying Agreed-Upon
                      Procedures Re: FY 2003 Environmental
                      Liabilities

12/03/03   A030110    Report   on Applying        Agreed-Upon
                      Procedures    Re: FY        2003   Loss
                      Contingencies

Non-GSA Contract Audits
10/02/03   A030254	   Preaward Audit of Cost or Pricing Data:
                      Shell Oil Company

02/12/04   A040120	   Preaward Audit of Cost or Pricing Data:
                      Shell Oil Company

02/20/04   A040138	   Preaward Audit of Cost or Pricing Data:
                      Shell Oil Company


                                                                         Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed



Date of        Audit
Report         Number                                           Title


Contract Audits
03/21/97        A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                                GS-02P-94-CUC-0033(N)

06/27/97        A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                                International, Inc., Contract Number GS06P94GYC0037

07/11/97        A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                                Number GS06P94GYC0037

07/22/97        A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                                Subcontractor to Morse Diesel International, Inc., Contract Number
                                GS06P94GYC0037

07/31/97        A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                                Number GS06P94GYC0037

08/05/97        A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                                Severely Disabled, Agreement Number GS-02F-61511

11/26/97        A22536          Postaward Audit of Multiple Award Schedule Contract:            Ingres Corporation,
                                Contract Number GS00K89AGS5589

11/26/97        A32476          Limited Audit of Government Billings:       Ingres Corporation, Contract Number
                                GS00K89AGS5589

02/05/98        A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                                Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                                CUC-0070(N)

03/19/98        A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                                Contract Number GS-07P-92-HUC-0017

05/27/98        A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                Contract Number GS-00F-07010

06/17/98        A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                Contract Number GS-09P-95-KTC-0010



58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                  Title


09/04/98   A990302   Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                     Systems, Contract Number GS-00F-76574

09/22/98   A80931    Preaward Review of Multiple Award Schedule Contract For The Extension Period
                     April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                     Contract Number GS-35F-5169H

09/24/98   A82456    Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                     Contract Number GS-07P-95-HUC-0068

10/13/98   A80636    Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                     Number GS-02P-96-DTC-0033

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99   A995128   Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                     Morse Diesel International, Inc., Contract Number GS06P95GZC0501

03/30/99   A995150   Preaward Audit of Supplemental Architect and Engineering Services Contract;
                     Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                     PLD-0015(N)

04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

05/05/99   A995151   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period
                     April 1, 1997 Through February 28, 1999: Danka Office Imaging Company,
                     Contract Number GS-26F-1018B

06/15/99   A42113    Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                     Contract Number GS-00F-07000

06/15/99   A995171   Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                     EMN-1999-MO-2032 & EMN-1999-MO-2036

06/22/99   A995164   Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                     Corporation, Extension to Contract Number GS-35F-4544G

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)



                                                                          Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                         Title


07/30/99        A995173         Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMR-
                                1999-MO-2032 & EMN-1999-MO-2036

09/09/99        A995283         Preaward Review of Multiple Award Schedule Contract:          National Education
                                Training Group, Inc., Contract Number GS-02B-22885

09/15/99        A52534          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288

09/15/99        A52565          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS01)

09/15/99        A52566          Postaward Audit of Multiple Award Schedule Contract:       Intermec Corporation,
                                Contract Number GS00K91AGS5288 (PS02)

09/23/99        A995296         Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                                Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                                2004

10/13/99        A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

11/30/99        A995289         Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                                Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                                Number GS-02P-93-CUC-0062

12/08/99        A995330         Preaward Audit of Multiple Award Schedule Contract: Caswell International
                                Corporation, Contract Number GS-02F-0434D

01/11/00        A000819         Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                                Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                                93-CUC-0062

02/15/00        A40910          Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                                Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00        A000923         Preaward Audit of Multiple Award Schedule Contract: Shamrock Scientific
                                Specialty Systems, Inc., Contract Number GS-14F-9732C



60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                  Title


03/02/00   A000934   Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                     Inc., Contract Number GS-14F-0150D

03/06/00   A000948   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                     Number GS-14F-0161D

03/06/00   A000963   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

03/09/00   A000911   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                     Contract Number GS-14F-9734C

03/10/00   A000936   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc., Contract
                     Number GS-14F-0177D

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996

03/29/00   A995122   Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                     Period March 1, 1996 Through April 30, 1998

04/25/00   A000975   Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                     Contract Number GS-14F-0193D

05/11/00   A000993   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

05/16/00   A001007   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                     GS-14F-9729C

05/18/00   A001009   Limited Postaward Audit of Multiple Award Schedule Contract: Day Runner,
                     Incorporated, Contract Number GS-14F-0193D

05/25/00   A000955   Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                     GS-23F-98006

06/01/00   A000971   Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                     Triangle Project

06/27/00   A000860   Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                     Requirements under Contract Number GS-23F-98006




                                                                          Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                         Title


06/30/00        A001000         Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                                98006

07/19/00        A000940         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00        A001028         Limited Review of Contract Extension Claim: International Services, Inc., Contract
                                Number GS-02P-94-CTD-0141

08/12/99        A995215         Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                                & EMN-1999-MO-2036

08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/31/00        A001044         Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

10/17/00        A001024         Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00        A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

12/13/00        A010047         Preaward Audit of Claim: Culpepper Construction Company, Inc., Contract Number
                                GS-04P-96-EXC-0033

01/10/01        A001092         Audit of Billings under Contract Number GS06P99GZC0304: Wayne Automatic
                                Sprinkler Corporation, Subcontractor to Fire Assurance, Inc.

01/10/01        A001021         Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                                Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                                0322J

01/25/01        A001081         Preaward Audit of a Claim for Increased Costs: Coken Company, Inc.,
                                Subcontractor to Dick Corporation, U.S. Courthouse & Federal Building, Phoenix,
                                Arizona, Contract Number GS-09P-96-KTC-0070

01/29/01        A000909         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

02/08/01        A010089         Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                                Courthouse, Pensacola, FL, Lease Number GS-04B-35055

02/28/01        A010093         Preaward Audit of a Change Order Proposal: J. Kokolakis Contracting, Inc.,
                                Contract Number GS-02P-98-DTC-0056N

03/20/01        A001119         Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                                99-DTC-0006 & GS-02P-98-DTC-0088

62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                   Title


03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.

05/11/01   A010128   Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                     J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01   A010160   Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                     Number 2PCB-CM-010174

05/30/01   A010175   Preaward Audit of Cost or Pricing Data: Caswell International Corporation, Contract
                     Number GS-02F-0434D

05/31/01   A010118   Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                     Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                     98-KTC-0020

06/06/01   A000965   Limited Scope Postaward Audit of Multiple Award Schedule Contract for the Period
                     July 1, 1999 Through December 31, 1999: Franklin Covey, Contract Number GS-
                     14F-9729C

06/19/01   A001113   Limited Scope Postaward Audit: Voyager Fleet Systems, Inc., Contract Number
                     GS-23F-98006 for the Interim Period November 30, 1998 Through December 31,
                     2000

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088

09/17/01   A010221   Preaward Audit of Multiple Award Schedule Contract: Konica Business
                     Technologies, Inc., Solicitation Number FCGE-C100-0001-B

09/26/01   A010253   Price Adjustments on Multiple Award Schedule Contract: TransUnion Corporation,
                     Contract Number GS-22F-9602D for the Interim Period November 1, 2001 Through
                     April 30, 2005

10/18/01   A63630    Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                     Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                     March 31, 1996

10/19/01   A010215   Preaward Audit of a Claim for Increased Costs: Century Steel, Inc., Subcontractor
                     to J.A. Jones Construction Company, Lloyd D. George U.S. Courthouse, Las
                     Vegas, Nevada, Contract Number GS-09P-97-KTC-0014


                                                                            Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                          Title


10/31/01        A010246         Preaward Audit of Multiple Award Schedule Contract for the Period October 1,
                                2001 through September 30, 2005: Kyocera Mita America, Inc., Solicitation
                                Number FCGE-C1-00-0001-B

10/31/01        A010265         Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                                Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

11/08/01        A010214         Preaward Audit of a Claim for Increased Costs: Strocal, Inc., Subcontractor to J.A.
                                Jones Construction Company, Lloyd D. George U.S. Courthouse, Las Vegas,
                                Nevada, Contract Number GS-09P-97-KTC-0014

11/29/01        A010011         Limited Scope Postaward Audit: MasterCard International’s Compliance with Fuel
                                Tax Requirements under GSA’s SmartPay Contract

12/18/01        A001123         Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                                Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                                April 30, 1991

01/11/02        A010281         Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/17/02        A010247         Preaward Audit of Multiple Award Schedule Contract: Cummings-Allison
                                Corporation, Solicitation Number FCGE-C1-00-0001-B

01/17/02        A010247         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Cummings-
                                Allison Corporation, Contract Number GS-25F-5126C

02/20/02        A010138         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

02/26/02        A010220         Preaward Audit of a Claim for Increased Costs: J.A. Jones Construction Company,
                                Inc., Lloyd D. George U.S. Courthouse, Las Vegas, Nevada, Contract Number GS-
                                09P-97-KTC-0014

03/07/02        A020108         Limited Scope Postaward Audit of the Industrial Funding Fee Submitted under
                                Multiple Award Schedule Contract Number GS26F1006B: Kyocera Mita America,
                                Inc.

04/03/02        A010263         Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                                Company, Contract Number GS-02P-95-DTC-0014

04/11/02        A60648          Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                                Numbers GS-00F-3918A & GS-00F-3919A

04/18/02        A010248         Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014



64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                   Title


04/26/02   A010262   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/29/02   A020154   Audit of Request for Equitable Adjustment: Control Systems International, Contract
                     Number GS-04P-97-EXC-0015

04/30/02   A020101   Preaward Audit of a Claim, Additional Change Items: Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

05/16/02   A020115   Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                     Contract Number GS-11P-99-MAC-0006

05/17/02   A020125   Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                     02P-98-DTC-0056N

05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N

05/22/02   A020157   Audit of Request for Equitable Adjustment: William R. Nash, Inc., Contract Number
                     GS-04P-97-EXC-0015

05/28/02   A020158   Audit of Request for Equitable Adjustment: Lynn Rai Electric, Inc., Contract
                     Number GS-04P-97-EXC-0015

05/29/02   A020109   Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/30/02   A020155   Audit of Request for Equitable Adjustment: Bay Mechanical, Inc., Contract Number
                     GS-04P-97-EXC-0015

05/31/02   A020156   Audit of Request for Equitable Adjustment: Mechanical Insulations, Inc., Contract
                     Number GS-04P-97-EXC-0015

06/06/02   A020132   Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                     97-GBC-0011

06/06/02   A020141   Audit of Claim for Increased Costs: The Albert M. Higley Co., Subcontractor to Dick
                     Corporation, Contract Number GS-05P-97-GBC-0011

06/06/02   A020142   Audit of Claim for Increased Costs: Mohawk Re-Bar Services, Inc., Subcontractor
                     to Dick Corporation, Contract Number GS-05P-97-GBC-0011




                                                                            Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                         Title


06/07/02        A020079         Audit of Request for Equitable Adjustment: Atlantic Coast Mechanical, Inc.,
                                Contract Number GS-04P-97-EXC-0015

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/11/02        A020065         Preaward Audit of Multiple Award Schedule Contract: Danka Office Imaging
                                Company, Solicitation Number FCGE-C1-00-0001-B

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/07/02        A020173         Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                                P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM

08/12/02        A020119         Audit of Request for Equitable Adjustment: Coken Company, Inc., Contract Number
                                GS-04P-97-EXC-0015

09/03/02        A020114         Audit of Claim for Increased Costs: Cleveland Construction, Inc., Subcontractor to
                                Clark Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/12/02        A020184         Audit of Request for Equitable Adjustment: Atlantic Coast Mechanical, Inc.,
                                Contract Number GS-04P-97-EXC-0015

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02        A020201         Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

09/26/02        A020066         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Danka Office
                                Imaging Company

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                   Title


10/02/02   A020200   Audit of Termination Claim: Herman B. Taylor Construction Company, Contract
                     Number GS-07P-92-HUC-017

10/22/02   A020221   Preaward Audit of a Claim: G-A Masonry Corporation, Subcontractor to Clark
                     Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

10/24/02   A020227   Audit of Request for Equitable Adjustment: Southern Pan Services Company,
                     Contract Number GS-04P-97-EXC-0015

10/29/02   A020202   Preaward Audit of a Claim: Juba Aluminum Products Company, Inc., Subcontractor
                     to Clark Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

11/14/02   A020254   Audit of Request for Equitable Adjustment: Terry’s Floor Fashions, Inc., Contract
                     Number GS-04P-97-EXC-0015

11/14/02   A020223   Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02   A010279   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                     U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                     GS-09P-95-KTC-0032

11/22/02   A020224   Preaward Audit of a Claim for Increased Costs: Commonwealth Electric Company,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

11/25/02   A020199   Preaward Audit of a Claim: Triangle Grading & Paving, Inc., Subcontractor to Clark
                     Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

12/05/02   A030054   Audit of Request for Equitable Adjustment: ISEC Construction Services, GS-04P-
                     97-EXC-0015

12/13/02   A030034   Preaward Audit of Cost or Pricing Data: OPN Architects, Inc., Contract Number
                     GS06P02GZC0520

12/19/02   A020249   Preaward Audit of Cost or Pricing Data: HLW International, LLP, Contract Number
                     GS-02P-93-CUC-0062

12/23/02   A020176   Preaward Audit of a Claim for Increased Costs: Vetro, Inc., Contract Number GS-
                     09P-97-KTC-0008

01/03/03   A020208   Preaward Audit of a Claim: Clark Construction Group, Incorporated, Contract
                     Number GS-04P-97-EXC-0015

01/03/03   A020242   Preaward Audit of Cost and Pricing Data: Stronghold Engineering, Inc., Solicitation
                     Number GS-09P-02-KTC-0069




                                                                            Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit
Report         Number                                         Title


01/07/03        A020192         Preaward Audit of a Claim for Increased Costs: Swinerton Builders, Evo A.
                                Deconcini U.S. Courthouse & Federal Building, Tucson, Arizona, Contract Number
                                GS-09P-97-KTC-0008

01/09/03        A030075         Preaward Audit of Architect and Engineering Services Contract: William Rawn
                                Associates, Architects, Inc., Consultant to OPN Architects, Inc., Contract Number
                                GS06P02GZC0520

01/15/03        A020250         Preaward Audit of Cost or Pricing Data: Gordon H. Smith Corporation, Consultant
                                to HLW International LLP, Contract Number GS-02P-93-CUC-0062

01/17/03        A030082         Audit of Request for Equitable Adjustment: ThyssenKrupp Elevator Corporation,
                                Contract Number GS-04P-97-EXC-0015

01/22/03        A020233         Preaward Audit of a Claim for Increased Costs: Sun Mechanical Contracting, Inc.,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

01/27/03        A030096         Audit of Request for Equitable Adjustment: Spencer Tile Company, Inc., Contract
                                Number GS-04P-97-EXC-0015

01/30/03        A020248         Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                                05P-99-GBC-0012

02/06/03        A995169         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Viking
                                Acoustical Corporation, Contract Number GS-00F-5004A

02/07/03        A020238         Preaward Audit of a Claim for Increased Costs: Standard Drywall, Inc.,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

02/12/03        A030081         Preaward Audit of a Claim for Increased Costs: Hardrock Concrete Placement
                                Company, Inc., Subcontractor to Swinerton Builders, Evo A. Deconcini U.S.
                                Courthouse & Federal Building, Tucson, Arizona, Contract Number GS-09P-97-
                                KTC-0008

02/14/03        A030094         Audit of Request for Equitable Adjustment: General Spray Service, Inc., Contract
                                Number GS-04P-97-EXC-0015

02/20/03        A020217         Preaward Audit of Sole Source Contract: NEEKO Construction, Inc., Solicitation
                                Number GS-11P-02-ZGC-0218 “NEG” 8(A)

02/26/03        A030076         Audit of Claim for Increased Costs: Northstar Fire Protection, Subcontractor to
                                Clark Construction Group, Inc., Contract Number GS-04P-97-EXC-0015

03/05/03        A030045         Preaward Audit of a Claim: Greenbrier Architectural Woodwork, Subcontractor to
                                Clark Construction Group, Inc., Contract Number GS-04P-97-EXC-0015



68 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of    Audit
Report     Number                                   Title


03/05/03   A030132   Audit of Claim for Increased Costs: Color, Inc., Subcontractor to The Clark
                     Construction Group, Inc., Contract Number GS06P96GZC0508

03/06/03   A030083   Audit of Claim for Increased Costs: ADF International, Inc., Subcontractor to Clark
                     Construction Group, Contract Number GS-04P-97-EXC-0015

03/11/03   A030095   Audit of Request for Equitable Adjustment: NLP Enterprises, Inc., Contract
                     Number GS-04P-97-EXC-0015

03/14/03   A020197   Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

03/20/03   A020251   Audit of Claim for Increased Costs: The Cleveland Marble Mosaic Company,
                     Contract Number GS-05P-99-GBC-0043

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/21/03   A030098   Preaward Audit of Construction Management Services Contract: Parsons
                     Brinckerhoff Construction Services, Inc., Solicitation Number GS-02P-02-DTC-
                     0029(N)

03/21/03   A030126   Preaward Audit of Architect/Engineering Proposal: Thompson Vaivoda and
                     Associates Architects, Inc., Solicitation Number GS-10P-02LTC-0039

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159




                                                                            Office of Inspector General 69
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending



Date of        Audit                                                                           Projected Final
Report         Number                                         Title                             Action Date


Internal Audits
07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year            06/15/04
                                1998 Financial Statement Audit

03/27/01        A000968         Review of Operating Equipment Inventories: Public Buildings           07/15/04
                                Service, New England Region

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and Year-         10/15/05
                                End Management Letters

10/17/01        A001122         Review of PBS Use of the Occupancy Agreement                          06/15/04

05/10/02        A010187         Audit of the General Services Administration’s Fiscal Years 2001      10/15/04
                                and 2000 Financial Statements

09/26/02        A020011         Audit of GSA’s Electronic Mail System Security                       06/15/04

09/30/02        A020056         Audit of Controls Over Reimbursable Work Authorizations Billing       06/15/04
                                Practices in the Greater Southwest Region

11/12/02        A020055         Audit of the Southeast Sunbelt Region Public Buildings Service’s     07/15/04
                                Administration of Construction Projects in Regard to Claims

12/11/02        A020135         Review of PBS’ Use of Brokerage Contracts for Lease Acquisition         Being
                                Services                                                              Revised

02/26/03        A020163         EDP Management Letter Fiscal Year 2002 Financial Statement            02/15/05
                                Audit

03/18/03        A020161         Audit of the Consolidation of Distribution Center Operations:         06/15/05
                                Impact on Shipment Costs & Delivery Times

03/18/03        A020163         Audit of the General Services Administration’s Fiscal Years 2002     10/15/05
                                and 2001 Financial Statements

03/31/03        A020146         Audit of FSS’s City Pair Program                                      07/15/04




70 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts





The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                • The Profit Recovery Group, through a contract
                                                             arrangement with GSA, continues to actively review
Collection                                                   and pursue overpayments in conjunction with our
During the period October 1, 2003 through March 31,          Public Buildings Service and Federal Technology
2004, GSA efforts to improve debt collection and             Service Accounts Payable Division associates.
reduce the amount of debt written off as uncollectible
focused on upgrading the collection function and           • GSA representatives held meetings with various
enhancing debt management.         These activities          National Institute for the Blind/National Institute for
included the following:                                      the Severely Handicapped (NIB/NISH) customers to
                                                             discuss payment of GSA bills. The representatives
•	 From October 1, 2003, to March 31, 2004, GSA              emphasized all GSA bills must be paid within
   Finance Centers referred approximately $3.6 million       45 days, including those for items with discrepan-
   of delinquent non-Federal claims to the U.S	              cies. As a result, the amount of outstanding
   Treasury Department (Treasury) for cross-servicing        accounts receivable from NIB/NISH customers
   collection activities. Collections on these claims        decreased from $2.9 million on August 31, 2003, to
   exceeded $38 million. Administrative offsets have         $2.6 million on February 29, 2004.
   resulted in additional collections of $6.2 million.
   GSA also collects non-Federal claims using Pre-         • As of March 5, 2004, the District of Columbia (DC)
   Authorized Debits (PADs). From October 1, 2003,           Government owed GSA $382,208 for supply bills
   to March 31, 2004, 55 PADs totaling $48,015 were          over two years old. This is a decrease of approxi-
   processed.                                                mately $368,019 from the amount owed as of
                                                             September 4, 2003. Several conference calls
•	 In compliance with the Debt Collection Improvement        among the DC Government, GSA Office of Finance,
   Act of 1996, GSA transmits delinquent claims each         and the Federal Supply Service were held in the fall
   month to the Treasury’s Financial Management              and winter to discuss payment of these bills. A
   Service for collection cross-servicing. 	                 spreadsheet of all outstanding supply bills is sent
                                                             monthly to the DC Government’s Inspector General
•	 Persistent claims coordination between regional           (IG) and Chief Financial Officer (CFO). The confer-
   contracting officers, Treasury, and our Finance           ence calls resulted in payment of many outstanding
   Centers continues to strengthen our claims                delinquent bills and focused the attention of the DC
   collection efforts.                                       Government IG and CFO offices on paying future
                                                             GSA bills in a timely manner.
•	 In accordance with OMB Circular A-129, we
   continue to eliminate non-paying debts aged over        • In December 2003, the Heartland Finance Center
   two years from our accounts receivable                    established an Industrial Funding Fee (IFF) claim in
   subsidiaries. All two year old claims without             the amount of $475,629. The claim was collected
   collection activity were researched and either            and paid in full by February 2004. The amount of
   collected or written off. We also implemented a new       this IFF claim was significantly larger than most IFF
   Chief Financial Officer performance goal to review        claims. For comparison, the other 38 IFF claims
   and contact delinquent accounts, especially those         recorded during the first two quarters of FY 2004
   approaching two years old. This is done on a              totaled $124,673.
   quarterly basis to ensure maximum effort is made to 

   collect debts before they become two years old.





                                                                                       Office of Inspector General 71
                                  Appendix IV–Delinquent Debts



The GSA Office of the Chief Financial Officer provided the following information.
•	 During this period, a Tiger Team was established to         enhancements are being made to help eliminate
   research and clear older payroll claims. To date,           situations giving rise to several types of payroll-
   over 1,000 claims have been researched and offset,          related claims. Once implemented, these controls
   billed, or written off. Internal control and system         should reduce the number of payroll-related claims.




Non-Federal Accounts Receivable

                                                  As of                    As of
                                              October 1, 2003          March 31, 2004           Difference

  Total Amounts Due GSA                         $17,564,137             $15,402,232             -$2,161,905

  Amounts Delinquent                            $10,177,279             $10,478,933               $301,654

  Total Amount Written
  Off as Uncollectible
  Between 10/01/03 and
  03/31/04                                          $208,111




72 Semiannual Report to the Congress
                                    Appendix V–Reporting Requirements





The table below cross-references the reporting require-                       Congress in Senate Report No. 96-829 relative to the

ments prescribed by the Inspector General Act of 1978,                        1980 Supplemental Appropriations and Rescission Bill

as amended, to the specific pages where they are                              and the National Defense Authorization Act is also

addressed.     The information requested by the                               cross-referenced to the appropriate page of the report.





  Requirement                                                                                                                              Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35–37

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . .2, 23


     Section 5(a)(2) – Recommendations with Respect to Significant 

      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 23


     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . .47

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where 

      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None


     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49


     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . .2, 23

     Section 5(a)(8) – Statistical Tables on Management Decisions on

      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42

     Section 5(a)(9) – Statistical Tables on Management Decisions on

      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41
     Section 5(a)(11) – Description and Explanation for Any Significant 

      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
     Section 5(a)(12) – Information on Any Significant Management

      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None
  Senate Report No. 96-829 


     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .71

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .58




                                                                                                                    Office of Inspector General 73

                            Appendix VI–OIG Offices and Key Officials




  Office of the Inspector General
  Inspector General, Daniel R. Levinson (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


  Office of Counsel to the Inspector General
  Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation
  Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374


  Headquarters Regional Inspectors General for Auditing (RIGAs)
  Finance & Staff Offices Audit Office, RIGA Kristin R. Wilson (JA-F) . . . . . . . . . . . . . . . . .(202) 501-0006

  Information Technology Audit Office, RIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . . .(703) 308-1223

  Acquisition Programs Audit Office, RIGA Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . .(703) 603-0189

  Real Property Audit Office, RIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


  Regional Inspectors General for Auditing (RIGAs)
  National Capital Field Office, RIGA Andrew A. Russoniello (JA-W) . . . . . . . . . . . . . . . . .(202) 708-5340

  New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

  Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, RIGA Warren T. Platt (JA-4) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




74 Semiannual Report to the Congress
                        Appendix VI–OIG Offices and Key Officials




Regional Inspectors General for Auditing (RIGAs) continued
The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

  Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


Office of Investigations
Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . .(202) 501-1397




Regional Inspectors General for Investigations (RIGIs)
Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . .(215) 446-4830

New York Zone Office, RIGI Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

  Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . .(617) 565-6820

Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

  Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . .(816) 926-7214

Fort Worth Zone Office, RIGI Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

  Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

  Auburn Sub-Office, Special Agent Terry Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director James J. Matthews (JPH) . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Edward G. VanBuren (JPM) . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                 Office of Inspector General 75

                                       Notes





76 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
